                                             SENSITIVE BUT UNCLASSIFIED


OFFICE OF INSPECTOR GENERAL

                                                       United States Department of State
                                                       and the Broadcasting Board of Governors
                                                       Office of Inspector General




                               OFFICE OF INSPECTIONS

                               Inspection of Embassy Jakarta, Indonesia,
                               and Constituent Posts


                               Report Number ISP-I-11-24A, March 2011
Inspector
General
Office of




                                                                      IMPORTANT NOTICE
                               This report is intended solely for the official use of the Department of State or the Broadcasting Board
                               of Governors, or any agency or organization receiving a copy directly from the Office of Inspector
                               General. No secondary distribution may be made, in whole or in part, outside the Department of State
                               or the Broadcasting Board of Governors, by them or by other agencies or organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be determined by the
                               Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in
                               criminal, civil, or administrative penalties.



                                             SENSITIVE BUT UNCLASSIFIED

  SENSITIVE BUT UNCLASSIFIED





   PURPOSE, SCOPE AND METHODOLOGY 

          OF THE INSPECTION



This inspection was conducted in accordance with the Quality
Standards for Inspections, as issued by the President’s Council
on Integrity and Efficiency, and the Inspector’s Handbook,
as issued by the Office of Inspector General for the U.S.
Department of State (Department) and the Broadcasting Board
of Governors (BBG).

Purpose
The Office of Inspections provides the Secretary of State, the Chairman of
the BBG, and Congress with systematic and independent evaluations of the
operations of the Department and the BBG. Inspections cover three broad
areas, consistent with Section 209 of the Foreign Service Act of 1980:
 • 	 Policy Implementation: whether policy goals and objectives are being
     effectively achieved; whether U.S. interests are being accurately
     and effectively represented; and whether all elements of an office or
     mission are being adequately coordinated.
 • 	 Resource Management: whether resources are being used and 

     managed with maximum efficiency, effectiveness, and economy and 

     whether financial transactions and accounts are properly conducted,

     maintained, and reported.

 • 	 Management Controls: whether the administration of activities and
     operations meets the requirements of applicable laws and regulations;
     whether internal management controls have been instituted to ensure
     quality of performance and reduce the likelihood of mismanagement;
     whether instance of fraud, waste, or abuse exist; and whether adequate
     steps for detection, correction, and prevention have been taken.

Methodology
In conducting this inspection, the inspectors: reviewed pertinent
records; as appropriate, circulated, reviewed, and compiled the results
of survey instruments; conducted on-site interviews; and reviewed the
substance of the report and its findings and recommendations with
offices, individuals, and organizations by this review.




  SENSITIVE BUT UNCLASSIFIED

               SENSITIVE BUT UNCLASSIFIED





                                           United States Department of State
                                           and the Broadcasting Board of Governors
                                           Office of Inspector General




                                     PREFACE


This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service
Act of 1980, as amended. It is one of a series of audit, inspection, investigative, and
special reports prepared by OIG periodically as part of its responsibility to promote
effective management, accountability and positive change in the Department of State
and the Broadcasting Board of Governors.

This report is the result of an assessment of the strengths and weaknesses of the
office, post, or function under review. It is based on interviews with employees and
officials of relevant agencies and institutions, direct observation, and a review of
applicable documents.

The recommendations therein have been developed on the basis of the best knowl­
edge available to OIG and, as appropriate, have been discussed in draft with those
responsible for implementation. It is my hope that these recommendations will result
in more effective, efficient and/or economical operations.

I express my appreciation to all of those who contributed to the preparation of this
report.




                                       Harold W. Geisel
                                       Deputy Inspector General




               SENSITIVE BUT UNCLASSIFIED

                       SENSITIVE BUT UNCLASSIFIED



                                   TABLE OF CONTENTS


KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

CONTEXT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

EXECUTIVE DIRECTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

  Managing Growth . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

  Attention to Security and Emergency Preparedness . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11

  Leadership and Morale Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11

  New Consulate Compound in Surabaya . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

  Leadership at Consulate General Surabaya . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

  American Presence Post Medan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

  Support of Equal Employment Opportunity Objectives . . . . . . . . . . . . . . . . . . . . . . . . . 14

  Communication Within and Across the Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

  Attention to and Direction of Public Diplomacy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .15

  Commercial Promotion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

  Mission Strategic and Resource Plan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

  Entry-Level Professional Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

  Staff Aide Position. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

POLICY AND PROGRAM IMPLEMENTATION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .19

  Political and Economic Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .19

  Political Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

  Economic Section . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

  Foreign Assistance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

  Public Diplomacy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

  @america . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

  Education . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

  Exchange Programs. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

  Information Resource Center and American Corners . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

  Social Media . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

  Indonesian Mass Media. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

  Public Diplomacy at American Presence Post Medan . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

  Public Diplomacy at Consulate General Surabaya . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

  International Broadcasting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

  Consular Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

  Countrywide Consular Coordination . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

  Consular Leadership . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

  Consular Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40

  Nonimmigrant Visa Processing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42

  Visa Referral System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47

  Visas Viper Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 50



               OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011                 iv


                       SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



        Assistant Regional Security Officer-Investigator Program . . . . . . . . . . . . . . . . . . . . . . . . 51

        American Citizens Services and Immigrant Visas . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51

        Consulate General Surabaya . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 52

    RESOURCE MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        55

      Management Operations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             56

      Facilities Management. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         58

      General Services Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          60

      Human Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        64

      Financial Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           68

      Information Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               70

      Best Practice: Customer Service Center – One-Stop Shop Service . . . . . . . . . . . . . . . . . .                                 72

      Best Practice: Binus Information Technology Intership . . . . . . . . . . . . . . . . . . . . . . . . . .                          73

      Consulate General Surabaya . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             74

      Consular Agency Bali . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         75

    QUALITY OF LIFE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          77

      Staff Morale . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   77

      Community Liaison Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             77

      Health Unit. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   78

      Recreation Association . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         80

      Equal Employment Opportunity. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  81

      Overseas Schools . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     83

    MANAGEMENT CONTROLS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 85

     Grants Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 86

    FORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 89

    INFORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 97

    PRINCIPAL OFFICIALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .111

    ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .113





v                  OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                           SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




KEY JUDGMENTS



• 	 A new Ambassador is giving the mission steady, solid leadership in the face of a
    heavy workload that, at the time of the inspection, included a fourth round of
    preparations for a Presidential visit.
• 	 As the U.S. partnership with Indonesia has deepened and broadened over the
    past several years, the mission has grown rapidly. New program and personnel
    proposals have not been vetted in a strategic way. As part of the FY 2013 Mission
    Strategic and Resource Plan (MSRP) process, the Ambassador will need to do his
    first strategic review and make changes as indicated by that review.
• 	 @america is an innovative, exciting, and expensive experiment in public diplo­
    macy outreach. The mission has taken an integrated approach to security and
    other challenges to help @america succeed, but a continuing performance
    measurement effort will be required to assess success.
• 	 The information management program is a standout success at Embassy Jakarta.
    The program is comprehensive, possessing an array of cross-cutting initiatives
    that have put the mission on the forefront of the information management
    program in the Department of State (Department).
• 	 Continuing delays with the new consulate compound project for Consulate
    General Surabaya not only affect staff morale but also create secondary manage­
    ment problems. The Bureau of Overseas Buildings Operations (OBO) needs to
    keep mission leadership better informed about progress on the project.
• 	 In a high threat environment for terrorism and natural disasters, mission leaders
    give high priority to security. The regional security offices in Jakarta and
    Surabaya are outstanding.
• 	 Embassy Jakarta’s consular section operates with an insufficient number of
    managerial positions, poor internal communications, confused lines of authority,
    inefficient nonimmigrant visa (NIV) procedures, a visa referral policy that does
    not comply with Department policies, and virtually nonexistent countrywide
    consular coordination. Consular operations in Surabaya and Bali are excellent but
    receive little support from Jakarta.




          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   1


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED


    All findings and recommendations in this report are based on conditions observed
    during the on-site review and the standards and policies then in effect. The report
    does not comment at length on areas where OIG did not identify problems that need
    to be corrected.

    The inspection took place in Washington, DC, between September 13 and 24, 2010;
    in Jakarta, Indonesia, between September 29 and November 1, 2010; in Medan,
    Indonesia, between October 6 and 8, 2010; in Denpasar, Bali, Indonesia, on October
    8, 2010; and in Surabaya, Indonesia, between October 12 and 15, 2010. (b) (6)




2            OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




CONTEXT


Indonesia is a country of superlatives: Its 17,000 equatorial islands stretch more than
3,000 miles from the west of Thailand to the border of Papua New Guinea. Key
shipping lanes, carrying more than 80 percent of China, Japan, and South Korea’s
petroleum imports, cross the vast archipelago.

With 240 million people,
Indonesia is the world’s third
largest democracy. It has one of
the most important reservoirs
of biodiversity on the planet.
Concern about rampant forest
clearing and burning makes
Indonesia a major player in the
global climate change debate.
In the past decade, it has been
a proving ground for antiter­
rorism policies, as indigenous
extremists perpetrated spec­
tacular attacks, including
bombings in Bali and Jakarta.                       Map of Jakarta, Indonesia and its surrounding region.
                                                    Source: U.S. Government
A successful U.S. diplomatic
partnership with Indonesia has
the potential to boost vital international commerce, influence a vast population of
Muslims, preserve critical biodiversity, mitigate climate change, and counter violent
extremists. Few nations offer so many opportunities for U.S. smart power. Public
diplomacy is critical, as the balance of Indonesians’ attitudes towards the United
States remains delicate, affected by perceptions of U.S. disrespect for Islam and over­
reliance on hard power.

Historically, Indonesia has been troubled by systemic corruption, human rights
abuses, a poor education system, and an overtaxed infrastructure. Allegations of
human rights abuses provide ongoing bilateral irritants. Since his election in 2004,
President Susilo Bambang Yudhoyono (known popularly as SBY) has effectively
focused on many of the systemic challenges facing Indonesia.

Benefitting from China’s shopping spree for commodities and strong domestic
demand, Indonesia avoided a recession from 2008–09 and posted impressive growth
in its gross domestic product. Like other expanding, less developed economies,


          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   3


                 SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



    Indonesia’s infrastructure will constrain growth unless it can be quickly modernized.
    SBY’s reelection in 2009 brought a level of stability that has encouraged international
    investors, resulting in a 34 percent increase in foreign direct investment in 2010 over
    2009.

    The election of Barack Obama as the U.S. President in 2008 gave a bump to
    Indonesian public approval of the United States. The President’s 4 years as a school­
    boy in Jakarta inevitably put American public focus on the country. Senior U.S. and
    Indonesian officials, meeting in Washington in September 2010, made a reality of
    SBY’s 2008 call for a comprehensive partnership, thereby setting the stage for a more
    robust and productive relationship.

    One of the world’s largest missions in terms of total Department employees, Embassy
    Jakarta has a daunting task in prioritizing activities and programs. Staffing by
    the Department and 16 other agencies is 1,445, including American and locally
    employed (LE) staff. Department funding in FY 2010 will exceed $28 million. In
    addition, U.S. Agency for International Development (USAID) programs are esti­
    mated to be $185 million.




4             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




EXECUTIVE DIRECTION


Three times in the year preceding this inspection, Embassy Jakarta prepared for a
Presidential visit. Each time, the visit did not happen. Announcement of the second
cancellation in March 2010 came just 48 hours before the scheduled arrival. As this
inspection ended in November 2010, the mission was in the midst of its fourth round
of visit preparations.

A Presidential visit is a huge event for any mission. Preparations bring to a virtual
halt almost all mission activities not directly supporting the visit. Already long work
hours are extended. Regular work days and weekends blur together. Vacations and
breaks are postponed. Family life is pushed to the side. All intellectual, emotional,
and physical energy is focused on the event. Even after a successful visit, it can take
weeks for embassy life to return to normal. For Embassy Jakarta, there has not been
an opportunity to bask in the glow of a successful visit or return to normal. Rather,
the emotional letdown was accompanied each time by knowledge that another round
of visit preparations would follow.

As Embassy Jakarta makes its fourth round of visit preparations, the most obvious
change for the embassy is at the top. A new Ambassador arrived in August 2010.
Anticipating that another visit was imminent, the Ambassador appreciated that his
first priority would be to rekindle in his staff a sense of excitement about this extraor­
dinary opportunity. The Ambassador, who came from serving as deputy assistant
secretary responsible for Indonesia in the Bureau of East Asian and Pacific Affairs
(EAP), who is in his first ambassadorship, and who did not have the experience
of service as deputy chief of mission (DCM), has relied wisely for guidance on his
staff, which has been through previous trip preparations. He also used his excellent
connections in Washington to structure the visit to be the central attraction, since
most of the deliverables that would be common for a Presidential visit were delivered
in anticipation of the previously scheduled trips. The Ambassador has also seen the
visit as an opportunity to bring together, under his leadership, section chiefs and
agency heads, about half of whom are also newly arrived in Jakarta.

The Ambassador inherited a heavy schedule of daily staff meetings that range
from a small group of senior staff two days a week to a country team meeting on
Wednesdays in which Consulate General Surabaya and APP Medan participate via
digital video conferences (DVC). Special working groups, most of which are linked
to goal papers in the MSRP, also meet regularly. The Ambassador told the inspectors
that he was in the process of evaluating whether the range and regularity of meetings
provides the most effective coordination of mission activities and communication. As
was the case with some other mission activities, he deferred changes until after the
President’s visit.

          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   5


                 SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



    The current schedule of meetings provides most members of the country team regu­
    lar access to the Ambassador and DCM. In addition, these meetings provide country
    team members opportunities for cross talk with their counterparts. The Ambassador
    and DCM are also available for scheduled and ad hoc meetings that sustain a steady
    and productive flow of information and decision making. Working groups, especially
    those on law enforcement, counterterrorism, and on the @america project (see Public
    Diplomacy discussion), are particularly productive. The Ambassador or DCM takes
    part in the law enforcement and counterterrorism meetings; the DCM chairs the
    @america group.




    MANAGING GROWTH
    Like so many missions in the past few years, Jakarta has been inundated with
    requests to add people and programs. Individually, the requests usually made sense,
    and more often than not, Jakarta concurred. New staff relieved work burdens on
    others or permitted additional engagement with Indonesians. Many of the programs
    that have been offered, such as the Biosecurity Engagement Program, have been a
    success in that Indonesian counterparts have been found, programs are being imple­
    mented, and some measure of success can be seen.

    Growth comes at a price, however. Expansion of people and programs in a country
    that has been deemed critical for domestic and international terrorism threats, and
    which is operating in cramped and deteriorating facilities, needs to be evaluated care­
    fully. This appears not always to have been the case.

    Requests for changes in staffing, either for U.S. direct-hire officials of the
    Department or other U.S. government agencies, are processed under National
    Security Decision Directive-38 (NSDD-38). NSDD-38 states that “all agencies with
    staffs operating under the authority of chiefs of mission will ensure that, in coordina­
    tion with the Department, the chief of mission’s approval is sought on any proposed
    changes in the size, composition, or mandate of such staff elements.”

    Embassy Jakarta’s records demonstrate a process in which all such requests are
    cleared through senior management and security officers, reviewed by the DCM, and
    approved by the Ambassador. These records do not indicate the level of due dili­
    gence exercised by the clearing and review officials. However, in a single instance,
    the files included a memorandum for the DCM, who departed post in 2009, that
    listed all outstanding NSDD-38 requests and had, where appropriate, comments
    from sections, such as political and economic, on the usefulness and proposed
    working relationships of some new positions. Most requests from other agencies



6             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



have been approved. Inspectors found no rejections of NSDD-38 requests from the
Department, although the files appeared to be incomplete.

The Ambassador has told his senior staff that when they clear a document, such as an
NSDD-38 request, he expects them to exercise due diligence. He has also indicated
that he expects all NSDD-38 requests to be held for his approval, as he does not feel
it is appropriate to delegate this responsibility.

At the initial meeting with the OIG team, the Ambassador asked the team to look,
in particular, at Department staffing with respect to rightsizing and right place­
ment. The OIG team determined that transfer of at least one position from Jakarta
to Surabaya was appropriate and that creation of a new consular officer position in
Surabaya may be justified. Recommendations on these positions are found in the
appropriate sections of this report. Although two new assistant regional security offi­
cer–investigator (ARSO-I) positions for Jakarta and Surabaya appear to be justified,
the NSDD-38 review process in spring 2009 was inadequate. There is no indication
in the files that the work to be done by a new ARSO-I in Surabaya was spelled out
or that either the consular section in Jakarta or the consul general in Surabaya were
consulted.

The President’s letter of instruction to chiefs of bilateral missions, such as Embassy
Jakarta, states:
        I ask that you review programs, personnel, and funding levels regularly, and
        ensure that all agencies attached to your Mission do likewise. Rightsizing the
        United States government presence abroad is a continuing requirement (emphasis
        added). To better meet our foreign policy goals, I will be expanding the
        Foreign Service and strengthening civilian capacity to work alongside the
        military. At the same time, we need to eliminate unnecessary duplication
        in our foreign operations. Functions that can be performed effectively and
        efficiently by personnel based in the United States or at regional offices
        overseas should not be performed at post. We should make greater use of the
        expertise of host country citizens, and outsource functions when it is effective
        and efficient to do so. In your reviews, should you find staffing to be either
        excessive or inadequate to the performance of priority mission goals and
        objectives, I urge you to initiate staffing changes in accordance with estab­
        lished procedures.

Embassy Jakarta last prepared a full rightsizing report in 2006. That report has been
updated four times since. The MSRP has routinely identified new Department posi­
tions that the Ambassador determined necessary to carry out embassy functions. The
bulk of NSDD-38 requests in the mission’s files, however, state that those positions
were not included in the MSRP (or its predecessor, the Mission Strategic Plan). Nor
have many of them been identified in the rightsizing review or its updates.


          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   7


                 SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



    In addition to rightsizing, the Ambassador has responsibility for the safety and
    security of all executive branch officials under chief of mission authority and their
    families. In an early meeting with the OIG team, the DCM reflected his and the
    Ambassador’s commitment to carry out this responsibility, telling the team that he
    was determined to do all he could to protect “his people.” One way to do that, of
    course, is to limit the number of official Americans and LE staff in the mission to the
    minimum number required to perform priority mission goals and objectives.

    Shortly after the President’s visit, the Ambassador and his country team will develop
    the FY 2013 MSRP for Indonesia, the first MSRP prepared under his leadership. As
    part of this strategic review of mission goals and objectives, the Ambassador needs
    to lead a thoroughgoing and dispassionate review of programs and people. Where
    staff are productive but their work can be done while residing outside Indonesia, or
    where programs are nice to have but not critical to achieve the mission’s goals, the
    Ambassador should meet his obligations to make appropriate changes in staffing or
    eliminate programs.


        RECOMMENDATION 1: Embassy Jakarta should, as part of the prepara­
        tion of the FY 2013 Mission Strategic and Resource Plan, review every mission
        position and program to determine its necessity in achieving the mission’s
        highest goals and objectives and make changes as indicated by that review.
        (Action: Embassy Jakarta)


    “Consulate Medan”: To Be or Not to Be?
    APP Medan has a staff of two Americans, eight LE office staff, and 15 guards. The
    purpose of APP Medan is outreach to Indonesian officials, opinion leaders, and
    citizens in Sumatra, a large, resource-rich but seismically unstable island that is home
    to over 45 million Indonesians living in ten provinces. In addition to travel, represen­
    tation, public diplomacy, and political and economic reporting, the APP is authorized
    to provide emergency American citizens services (ACS).

    Since its establishment in 2004, APP Medan has, like other parts of the mission,
    undergone a process of accretion of programs and people. The two Americans in
    Medan is the maximum the Department allows for an APP. Meanwhile, the LE
    office staff has grown from five to eight, and APP Medan is developing plans to add
    more positions. In Medan and Jakarta, APP Medan is referred to and thought of as a
    consulate, but it is not.

    Despite that fact, American officers in Medan had been providing consular services
    beyond their mandate. The discussion of that problem and how the OIG team
    addressed it is in the consular affairs section of this report. In addition, the principal


8             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



officer has expanded public diplomacy programming in energetic and innovative
ways. (See the public diplomacy section of this report for a further discussion of
public diplomacy programming.) New programs and responsibilities have been
added, or unauthorized activities have been carried out, without strategic planning.
Mission leaders note that, if they were to make a case to the Department to change
the status of the APP, such a process could take years.

It is time for the mission to make an assessment and a choice. Either the case should
be made to the Department that APP Medan deserves elevation to the status of a
consulate, with new facilities with security safeguards, new responsibilities (such as
possibly processing NIVs), and new staff, or the embassy must ensure that the post is
neither tasked nor operated beyond the current mandate of presence and outreach.


   RECOMMENDATION 2: Embassy Jakarta should determine what kind of
   diplomatic establishment it wants American Presence Post Medan to be, and,
   if that determination is that it should be a consulate, Embassy Jakarta should
   make that case to the Department. (Action: Embassy Jakarta)



U.S. Mission to the Association of Southeast Asian Nations
In 2007, under direction from Congress, the Department established and filled the
position of U.S. Ambassador for Association of Southeast Asian Nations (ASEAN)
Affairs. The current Ambassador in Jakarta was the first to hold the ASEAN Affairs
ambassadorship concurrently with his service as deputy assistant secretary in EAP.
In fall 2009, the Department determined that there should be a resident Ambassador
for ASEAN and a small U.S. Mission to ASEAN in Jakarta. The Department has
begun assigning staff to the mission, including two political-economic officers
and an office management specialist. The Department’s plans also include the
possibility of a public diplomacy officer as well as liaison officers from USAID’s
Regional Development Mission for Asia office in Bangkok and from the U.S. Pacific
Command.

The multilateral mission to ASEAN will share office space in the bilateral mission
chancery. Embassy Jakarta will provide administrative, security, communications,
transportation, housing, financial, and other support services to the multilateral
mission. The Department anticipates the bilateral mission’s public affairs section
(PAS) will provide public diplomacy support during the new mission’s start-up phase,
and PAS is doing so now.




          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   9


                 SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     Having been the first ASEAN Affairs Ambassador, the bilateral Ambassador is
     well aware of the challenges and opportunities his successor faces. The bilateral
     Ambassador told the inspection team of his intent to work closely with the ASEAN
     mission Ambassador, including through weekly breakfast meetings. Such commu­
     nication and cooperation will become especially critical in 2011, when Indonesia
     assumes the year-long chairmanship of ASEAN. As chair, Indonesia will host the
     ASEAN Post-ministerial Conference and ASEAN Regional Forum meetings, which
     the Secretary of State usually attends. In addition, ASEAN now has a defense minis­
     ters’ forum to which the Secretary of Defense is invited; that meeting will also be
     in Jakarta. It will be particularly critical for the bilateral mission in Jakarta and the
     ASEAN mission to sort out which mission will have responsibility for supporting
     these visits and which Ambassador will be the lead, as such visits put strains on the
     bilateral mission’s resources while also providing opportunities for bilateral engage­
     ments with the host government.

     Another potentially tricky issue is new staffing requests, such as those anticipated for
     an ASEAN mission public diplomacy officer and other agency liaison officers. Under
     the provisions of NSDD-38, the multilateral Chief of Mission will have sole respon­
     sibility for the staffing of the ASEAN mission, including approving additional staff.
     The bilateral mission Ambassador, however, will bear the burden of providing office
     space, housing, security, and support to any new staff. In principle, the multilateral
     Chief of Mission is not obliged to seek approval for any staffing changes with his
     bilateral mission counterpart.

     While good personal relations between the two chiefs of mission may make it possi­
     ble to manage problems, such as those described above, reliance on personal relation­
     ships alone is not good business practice. A memorandum of understanding between
     the two missions, defining obligations and expectations, and particularly giving the
     bilateral Ambassador the opportunity to say through the NSDD-38 process whether
     the embassy can support the addition of new personnel in the multilateral mission,
     will reduce the potential for misunderstandings or wasteful duplication.


         RECOMMENDATION 3: Embassy Jakarta, in coordination with the U.S.
         Mission to the Association of Southeast Asian Nations, should develop a
         memorandum of understanding to define obligations and expectations of the
         two missions, with provisions for the memorandum to be renewed with each
         change of Ambassador in either mission. (Action: Embassy Jakarta, in coordi­
         nation with the U.S. Mission to ASEAN)




10             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



ATTENTION TO SECURITY AND EMERGENCY
PREPAREDNESS
Indonesia is no stranger to terrorism and terrorist bombings. Even before the widely
known 2002 Bali bombing, Indonesia had suffered from a bomb attack on the
Jakarta stock exchange in 2000, a wave of church bombings on Christmas Eve that
year, and a suicide bomb attack against the Philippine Ambassador in 2001. Despite
much-improved counterterrorism capabilities of Indonesia’s police, spectacular
attacks have been recorded regularly since the first Bali bombing: the J.W. Marriott
Hotel in Jakarta in 2003, the Australian Embassy in Jakarta in 2004, Bali again in
2005, and the J.W. Marriott and Ritz-Carlton Hotels in Jakarta in 2009. In light
of this history and knowledge of other planned, but unsuccessful, attacks against
U.S. citizens or interests over this period, mission leadership is not complacent about
security. Information gathering and communication about security are top priorities
of mission leadership. The mission has one of the most effective law enforcement and
counterterrorism working groups the OIG team has observed.

In addition to terrorism, Indonesia sits atop the so-called “ring of fire.” Volcanic
eruptions and earthquakes are commonplace. The devastating day-after-Christmas
tsunami in 2004, an earthquake that leveled parts of the Sumatran city of Padang
in 2009, and an earthquake with tsunami in Sumatra and a volcanic eruption in
Central Java that occurred during the same week of the inspection are but recent and
graphic examples of the potential for natural disasters which affect U.S. citizens and
interests.

Embassy leadership takes a direct interest in disaster preparedness, whether natural or
man-made. For instance, they delayed a crisis management exercise earlier this year
to ensure that the newly arriving regional security officer could participate. Embassy
leadership can also take credit for professional development and recognition. Three
of the four assistant regional security officers (including the deputy regional security
officer and the ARSO-I) serving in the security office in the past year received
promotions in the most recent cycle, and another one was recognized with a meritori­
ous service increase.




LEADERSHIP AND MORALE ISSUES
Service in Indonesia, and particularly in Jakarta, is a challenge. Employees spend
long hours at the office as the bilateral partnership between Indonesia and the United
States deepens; high level visits are frequent between capitals; and four sets of prepa­
rations for a Presidential visit in the last year have been especially stressful. Traffic,



          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   11


                 SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     weather, health care, and isolation at the end of the transportation line are also factors
     that affect morale and contribute to the mission staff receiving a 25 percent hardship
     allowance.

     The Ambassador realized he could not do much about the heavy workload for the
     mission staff, including preparations for the Presidential visit and a multifaceted
     Comprehensive Partnership that demands enormous time and effort. Even after the
     visit, the bilateral relationship will remain intense, and much of the embassy staff will
     begin the move to temporary office spaces as a 5- to 6-year process begins to replace
     the chancery and current group of buildings on the embassy compound. Stress is not
     going away.

     The Ambassador, in his initial weeks in Indonesia, has been active in demonstrating
     a measured leadership style. He has visited the constituent posts. He held a town
     hall meeting with LE staff immediately after arrival. He has walked around the
     compound, and in an innovative step, is meeting with all of the embassy’s nearly
     450 guards. The Ambassador has also gone where none of his predecessors have gone
     before (or at least not in recent memory), such as the Library of Congress offices. He
     has encouraged his DCM to open a mission dialogue on steps that can be taken to
     address work-life balance issues. Having come from the Department, he has demon­
     strated to staff that the Department can be an ally in accomplishing mission goals.

     Based on responses in personal questionnaires prepared before the inspection, mission
     morale was neither particularly good nor especially bad. Many mission staff assessed
     personal morale as being much better than the morale of the mission as a whole.
     That divergent assessment suggests there is room for improvement in the way mission
     staff feel about their work and being in Indonesia.




     NEW CONSULATE COMPOUND IN SURABAYA
     One leadership challenge facing the Ambassador is the new consulate compound in
     Surabaya. Already two years after the initial delivery date, the best estimate available
     for completion is May 2011. Contract disputes and other issues leave some observers
     concerned that completion may be another year or more away.

     Consulate General Surabaya and the embassy have carried out prudent planning
     for occupation of the new building. These plans have included identification of new
     staff required to support and protect a much larger physical facility than the current
     rented office space, acquisition of furniture and supplies, and other necessary steps.
     Frustration is widespread, however, as initiatives must be put on hold and as already
     cramped warehouse space must hold items much longer than anticipated. OBO



12             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED


has not been as diligent as it should be in communicating with the embassy about
problems and realistic timelines. The financial and psychological impact of a project
that seems to have no end is hard to measure, but it is real and growing. The OIG
team encouraged the Ambassador to take a direct and regular role in monitoring the
project and moving it toward completion, such as by visiting the site every eight to
ten weeks to demonstrate his personal interest.


   RECOMMENDATION 4: The Bureau of Overseas Buildings Operations
   should provide the Ambassador at Embassy Jakarta with at least bimonthly
   updates on the progress of the new consulate compound in Surabaya, includ­
   ing an estimate of the occupation date. (Action: OBO)




LEADERSHIP AT CONSULATE GENERAL SURABAYA
The newly arrived consul general in Surabaya is leading a small but energetic and
productive team. All but one of the assigned American staff arrived in the past few
months; many of them, including the consul general, studied Indonesian language
together. The one long-serving officer has become a closely integrated member of the
new team. The first focus of the consul general and her team is preparation to occupy
the new consulate compound. Their shared frustration is the uncertainty about when
that may be possible.

The consul general puts a high priority on security. Working closely with her new
and capable regional security officer, she has taken extraordinary steps to review and
improve personal security awareness and security practices at the existing aging and
inadequate consulate general building.




AMERICAN PRESENCE POST MEDAN
The United States had a consulate general in Medan until 1996, when the
Department closed the post as part of a cost-saving drive. Until 2004, a skeleton LE
staff worked at the government-owned principal officer’s residence to maintain that
property and oversee sale of the former consulate general building. The Department
notified Congress in 2004 of its intent to reopen Medan as an APP with a small
staff and limited duties. Individually, most LE staff members perform well, but the
post has been troubled for much of the time since 2004 by leadership issues and by


          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   13


                 SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     disputes and divisions among LE staff. Since 2009, the principal officer, supported
     and assisted by the DCM and other Embassy Jakarta elements, made efforts to
     resolve interpersonal problems. Mission leaders have not ignored the issues at APP
     Medan, but many of those problems have not yet been resolved.




     SUPPORT OF EQUAL EMPLOYMENT OPPORTUNITY
     OBJECTIVES
     Embassy leadership strongly supports Equal Employment Opportunity (EEO) in
     principle and practice, but the mission does not have a sufficient number of EEO
     counselors or of LE staff EEO liaisons for its size. Given the number of EEO issues
     that have arisen in the mission in the past year and the number of EEO counsel­
     ors that need to be trained in this mission, EEO training is a serious need that is
     addressed in greater detail in the Quality of Life section of this report.




     COMMUNICATION WITHIN AND ACROSS THE MISSION
     The arrival of new section leaders in summer 2010 had the salutary effect of improv­
     ing communication within Embassy Jakarta. The new Ambassador has also made
     clear to mission staff that he welcomes the surfacing of new ideas or constructive
     criticism where it is productive. Country team and working group meetings function
     well as mediums of communication in the embassy.

     Embassy communication with constituent posts in Surabaya and Medan is more
     problematic. Inclusion of these posts in a weekly, unclassified DVC country team is
     a bright spot, as these meetings help inform constituent post Americans of country­
     wide developments and offer them an opportunity to raise issues in a country team
     setting. The Ambassador and DCM also stay in steady touch with principal officers
     through visits, email exchanges, and phone conversations, but weaknesses exist.
     Neither embassy nor constituent post officers in most sections have travel plans that
     would permit consultations and building of familiar working relationships. The head
     of the consular section in Jakarta has not exercised countrywide consular manage­
     ment responsibilities. Most LE staff members in the constituent posts do not have LE
     staff counterparts at the embassy who can serve as sources of professional advice or as
     mentors when issues arise. This lack of communication channels has had a particu­
     larly deleterious impact at APP Medan. Both formal and informal recommendations
     in the appropriate sections of this report address some of these communication issues.



14             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



ATTENTION TO AND DIRECTION OF PUBLIC DIPLOMACY
The Ambassador told the OIG inspectors: “Everything I do in Indonesia is public
affairs.” He is right. His relationship with the public affairs officer and public diplo­
macy staff is close and effective. In his first weeks in Jakarta, the Ambassador has
been open to guidance from PAS about public speaking venues, audiences, messages,
and interaction with the local media. The impact is notable, as the Ambassador is
regularly featured in local media that is otherwise obsessed with local news.

The FY 2012 MSRP did not include a separate public diplomacy goal, but four of the
eight MSRP goals have heavy public diplomacy components, and public diplomacy is
an element in three others.

The priority given to public diplomacy is especially evident in a project begun under
the previous Ambassador. First known as American Place and now designated
@america, this innovative, exciting, and expensive experiment is set to open to the
public after the inspection has concluded. The concept behind @america is to take
public outreach outside the embassy fortress and engage Indonesians, especially
younger ones, where they spend their time. That place is a luxury shopping mall.
Programming is also focused on high technology and trendsetting issues that should
be attractive to youth. Many problems with space acquisition, physical security,
construction, and negotiations with private partners for content have been addressed;
these processes delayed the opening and increased costs, but they also may increase
the ultimate chances of success.

The Office of the Under Secretary for Public Diplomacy and Public Affairs is fully
committed to @america, including development and implementation of ways to
measure performance. @america has an initial budget of $6 million plus $2 million
a year in the out years. Embassy Jakarta, with Department support, is adding an
assistant cultural affairs officer and two LE staff to support @america.

The current Ambassador supports @america. The DCM has been the enthusiastic
and energetic chair of the mission working group making the project a reality.
Realistically, it will be several years before the question of whether @america should
be replicated can be answered. Other public diplomacy sections around the world are
anxious to be selected and funded for their own @america even before the Embassy
Jakarta beta test of the experiment is completed and meaningful, reliable analysis
over a period of time has been done.




          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   15


                 SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     COMMERCIAL PROMOTION 

     Indonesia is the world’s fourth most populous country and the 16th largest economy.
     It is a promising market for increased U.S. food, agricultural, and other exports.
     However, U.S. companies face considerable obstacles in the market. The Foreign
     Agricultural Service and Foreign Commercial Service offices are energetic proponents
     of American business. The Foreign Commercial Service also gives serious attention
     to promoting education opportunities in the United States. The executive office
     prominently promotes U.S. goods and services and is a strong advocate for individual
     U.S. companies. The mission concertedly advocates for Indonesian policy changes to
     make the market more conducive to American businesses.




     MISSION STRATEGIC AND RESOURCE PLAN
     In reviewing Embassy Jakarta’s FY 2012 MSRP submission, Department specialists
     felt that the MSRP provided a fairly strategic overview of the bilateral relationship,
     that its priorities lined up with identified challenges, and that bringing back an
     economic goal after 3 years was a positive step. The specialists were more critical of
     the vast scope of some goals, of performance indicators that were deemed inadequate,
     and of the mission’s failure to follow guidance on expected limits on budget growth
     or to address what the mission would do if it did not receive requested resources.

     All mission elements engaged in preparation of the FY 2012 MSRP. Entry-level
     personnel, in particular, were encouraged to be involved, with one entry-level officer
     (ELO) designated to coordinate MSRP submissions.




     ENTRY-LEVEL PROFESSIONAL PROGRAM
     The entry-level professional program in the embassy needs to be strengthened. The
     economic counselor and the management counselor have organized roundtable
     discussions and the DCM has attended some of them. The DCM has also had
     informal discussions with the entry-level professionals at his residence. However,
     there has not been much program activity in the past year. The OIG team gave the
     entry-level professionals several suggestions, based on examples from other posts with
     successful programs, on how to create a matrix of activities that would enhance their
     professional development. They were eager to take this on after the President’s visit.




16             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



STAFF AIDE POSITION

The mission’s FY 2012 MSRP requested a new position for a staff aide in the execu­
tive office. EAP has not yet responded to the MSRP or to direct inquiries. For some
time, Embassy Jakarta has filled a staff aide position informally by taking an ELO
from the political, economic, or consular section and assigning that officer for three
months in the executive office. At the outset of the inspection, the Ambassador
commented that he was evaluating the need for a staff aide.

There is a case to be made. Embassy Jakarta is large and complex enough, and the
Ambassador’s need for support is substantial enough, that an ELO may serve as
a useful counterpart to the Ambassador’s senior and experienced office manage­
ment specialist. In addition, most ELOs assigned to Jakarta receive at least some
Indonesian language training, and staff aides are often the only Americans in the
front office who speak the language–a potentially useful asset. Moreover, many chiefs
of mission, who have served as embassy staff aides, feel the experience provides a
unique professional development opportunity.

Conversely, most of the work that has been done by Embassy Jakarta staff aides
essentially duplicated the role of the Ambassador’s and DCM’s office management
specialists. There currently is no written position description for the staff aide. Nor
have officers received work requirements statements or specific evaluation of their
service.

Staff aides have often been new to the Foreign Service with limited knowledge of
embassy or Department operations and culture. This lack of knowledge deepens
their learning curve and limits their effectiveness. In addition, the current 3-month
tenure of the staff aide means that, just as he or she becomes familiar with the job
requirements and is effective, they return to their section. As a result, the two office
management specialists constantly must train and mentor a new staff aide, which
adds to their work load and stress levels.

If there is a need for a staff aide, the solution should not be to take officers from
other sections on short rotations, as that has a negative impact on the resources of the
losing office. The staff aide should serve for one year. The officer would also benefit
from having experience working in the embassy for a period of time before taking
on staff aide duties. The position should therefore be a rotation between an embassy
section and the executive office.

In the past several years, Embassy Jakarta has received a generous allotment of new
ELO positions. Rather than waiting for the Department to provide yet another
position, the embassy may be able to draw on existing resources to reprogram two
positions to create a rotation, subject of course to approval by the Department.



          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   17


                 SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED




     RECOMMENDATION 5: Embassy Jakarta, in coordination with the
     Bureau of East Asian and Pacific Affairs and the Bureau of Human Resources,
     should reevaluate the request for a staff aide position and, if it determines that
     one is needed, it should either reiterate its request to the Department for a new
     position or ask the Department to reprogram two existing positions to create
     a junior officer rotational position. (Action: Embassy Jakarta, in coordination
     with EAP and DGHR)




18         OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                  SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



POLICY AND PROGRAM
IMPLEMENTATION


POLITICAL AND ECONOMIC AFFAIRS
The elevation and deepening of bilateral relations, marked by the November 2010
visit of President Obama and the launch of the Comprehensive Partnership, calls
for greater discipline in the use of mission resources. Indonesia is progressively
more active regionally and globally, increasing the range of issues for coordination.
With Indonesia a member of the Group of 20 leading economies, Embassy Jakarta
conducts intensive advocacy to secure Indonesia’s support for U.S. objectives in the
Group of 20. For more than a decade, Congress limited the U.S. military role in
Indonesia. In recognition of Indonesian progress on democratic reforms and actions
taken to address military practices, and in consultation with Congress, the United
States announced in June 2010 a revised policy expanding military cooperation. The
Indonesian government is committed to battling corruption but faces entrenched
political resistance. Pervasive corruption impedes the pace of Indonesia’s political and
other reform efforts that the United States supports through a variety of programs.
Weak rule-of-law institutions and local practices inhibit American firms from
increasing their presence in the market.

 The mission prepares for a large number of meetings at the cabinet and subcabi­
net level with Indonesian counterparts across a wide array of issues. It has been in
near-constant planning mode for a Presidential visit for a year. Work volume will
continue at a significant pace, particularly in support of the bilateral working groups
chaired by multiple U.S. agencies of the U.S.-Indonesia Joint Commission, which the
Secretary and the Foreign Minister launched in September 2010. Forty U.S. agen­
cies are involved in technical assistance and cooperative dialogue with Indonesian
counterparts.

There is room to multiply the effectiveness of mission undertakings in Indonesia
through better sharing of knowledge and expertise and through closer integration
with constituent posts. Officers with political/economic reporting responsibilities in
the constituent posts need guidance from more experienced mentors in the embassy.
They also need regular consultations in the embassy arranged through their mentor
and the mentors need to have consultations on a regular basis in Surabaya and
Medan.


          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   19


                 SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




        RECOMMENDATION 6: Embassy Jakarta should assign mentors from
        the political and economic sections to the officers in the political/economic
        positions in Consulate General Surabaya and American Presence Post Medan
        and create and implement a plan for regular reciprocal visits and consultations
        between those officers and their mentors. (Action: Embassy Jakarta)


     The OIG team reviewed embassy cables with content about the Surabaya district on
     which consulate staff were not consulted. Surabaya and Medan staff, on the other
     hand, routinely clear draft cables with their embassy counterparts, who provide
     timely reactions. The OIG team made an informal recommendation that reporting
     officers in Jakarta reciprocate this practice and clear cables with constituent posts
     when there is substantial content related to those districts.

     LE staff members in Surabaya and Medan have had difficulty keeping current with
     and understanding the objectives of mission activities. The OIG team informally
     recommended that embassy staff explore ways to improve collaboration between LE
     staff in the embassy and the constituent posts on cross-cutting political, economic,
     environmental, science, technology, and health topics.


     Mid-level Political/Economic Officer Position in Surabaya
     Consulate General Surabaya needs another political/economic officer position. The
     OIG team opined that Embassy Jakarta’s political section could afford to have a posi­
     tion transferred to Surabaya. The advantages of such a move would be significant,
     including greater opportunities for contact work in Surabaya’s vast consular district.
     Currently Surabaya has one ELO in its political/economic section. If a position is
     moved from Jakarta, it should be graded at the FS-03 level and be the supervisor of
     the section. Both political/economic officers would then have greater opportunities
     to travel, develop contacts, report, and participate in outreach. The new consulate in
     Surabaya will have sufficient space for an office for the new section chief position,
     and that officer could serve as a backup for the consul general when he or she is away
     from post.


        RECOMMENDATION 7: Embassy Jakarta, in coordination with the
        Bureau of East Asian and Pacific Affairs and the Bureau of Human Resources,
        should reprogram a political officer position from Jakarta to Consulate
        General Surabaya and grade that position at the FS-03 level as the chief of the
        political/economic section. (Action: Embassy Jakarta, in coordination with
        EAP and DGHR)



20            OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



Records and Data Management

Political and economic section employees have not implemented Department proce­
dures on information sharing and document management. They are not using the
Department’s Traffic Analysis by Geography and Subject (TAGS) labeling system.
Officers retain information in personal email folders or electronic document folders
that are not readily accessible to colleagues when an officer is out of the office, away
on leave, or departs from post. The OIG team informally recommended that the
embassy establish electronic filing systems according to the TAGS system.

The political and economic section staffs have not retired files to Department
archives in recent years, as is required in 5 FAM 433 b. This creates inefficiency in
terms of time spent searching for information, the inaccessibility of model documents
for inexperienced officers, and a loss of retrievable material for the Department and
historians. The OIG team made an informal recommendation that the embassy
instruct employees on proper records management and archiving responsibilities and
ensure compliance with those requirements.

Embassy Jakarta was introducing the State Messaging and Archive Retrieval Toolset
(SMART) software system during the period of the inspection. “Record email”
is designed to archive emails and the record email function should be used for a
significant number of emails relating to schedules for visitors, ongoing steps taken in
the implementation of programs, and the exchange of views on policy-related matters
with Department offices and other agencies. The OIG team made an informal
recommendation that the embassy issue guidance on the types of email correspon­
dence that should be maintained for files and archiving purposes in the new SMART
system.

The protocol office maintains a centralized contact database which the political,
economic, and public affairs sections and the Defense attaché office regularly use.
Broader use of the database could reduce time spent searching for contact informa­
tion and would improve the efficiency of mission outreach. The OIG team infor­
mally recommended that all mission elements, including other agencies and specifi­
cally the constituent posts, make use of the centralized contact database on a regular
basis.


Biographic Reporting
The political and economic sections hold biographic files for internal use. A number
of unclassified biographies are maintained on an embassy SharePoint link on its
intranet site, but the link is not widely known by Department consumers. The OIG
team made an informal recommendation that the embassy make a concerted effort to
inform Department consumers that this data is available.



          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   21


                 SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     The embassy does not formally submit biographic reporting and analysis on a regu­
     lar basis. There is no sense that biographic reporting is a job for everyone who has
     contacts and not just for those in the political section. The economic section has
     influential Indonesian contacts but is not submitting biographic reporting. After
     staff changes in 2010, the embassy transmitted two cables that had useful biographic
     comment paragraphs, a welcome step that should become a regular practice. Lack
     of formal biographic reporting with analysis has resulted in repeated requests to
     Embassy Jakarta for information to complete briefing papers in the Department. It
     also fails to build the Department’s biographic database, which is used for archival
     and other purposes.


         RECOMMENDATION 8: Embassy Jakarta should require biographic
         information in reporting on meetings and should include biographic reporting
         responsibilities in the work requirements statements of all officers who have
         significant amounts of contact work. (Action: Embassy Jakarta)




     POLITICAL AFFAIRS
     The political staff is adjusting to a new Ambassador and new section chief who
     encourage the expression of opinions and promote the inclusion of analysis in report­
     ing cables. Washington consumers praise the improvements in the quality of analysis
     and reporting. The section is building on its extensive contacts across Indonesian
     society. There is an uptick in meetings outside the office and travel to regions distant
     from the capital by individual officers and jointly with the Ambassador. During the
     inspection, the section was formulating a reporting plan for FY 2011, based on the
     MSRP, to organize its work better.

     The staff is involved in strengthening Indonesian capacity to promote good
     governance and rule of law, to fight terrorism, to combat trafficking in persons,
     and to bolster respect for human rights. The mission can point to real accomplish­
     ments, particularly on counterterrorism and law enforcement issues. It has engaged
     Indonesian government officials and private groups in efforts to staunch trafficking
     of children and women, and to combat forced labor practices for men in fishing
     and mining. Indonesia is making progress in these areas although its performance is
     uneven.

     The OIG team observed uneven allocations of assignments. Staff morale and
     productivity could be bolstered by distributing workload more evenly and changing
     the definition and distribution of portfolios. The counselor and unit chiefs have not


22             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



provided positive feedback regularly to American and LE staff. They could arrange
for more explicit guidance and appropriate training to underperforming staff. The
OIG team left an informal recommendation to address these points.

Better communication within the section and with constituent posts could improve
the section’s efficiency. Supervisors could use staff meetings to convey the strategic
focus of activities and clarify priorities and use daily huddles to orient staff to short-
term adjustments in priorities and deadlines. The counselor and unit chiefs should
consult systematically to avert multiple meeting requests being made in the same
time period with the same Indonesian officials.


    RECOMMENDATION 9: Embassy Jakarta should conduct periodically
    digital video conferences of political section staff meetings with Consulate
    General Surabaya and American Presence Post Medan. (Action: Embassy
    Jakarta)


In the case of fast-breaking events such as Indonesian police and military actions
that may raise human rights concerns, there is widespread official and public
interest outside Indonesia that demands a quickened pace of reporting to help the
Department field questions from the media and Congress. The executive office has
authorized the political section to approve cables for transmittal. The OIG team
informally recommended that the political section management approve and trans­
mit cables within a few days’ timeframe and not allow the desire to edit for perfect
quality to slow the approval and transmittal of cables.


Law Enforcement, Counternarcotics, and Rule of Law
The DCM chairs a strategically focused counterterrorism and law enforcement
working group that meets every other week. A political officer, who is regarded as a
trusted mediator, serves as coordinator. Thirty participants from the Departments
of State, Justice, and Homeland Security, and the Coast Guard, Federal Bureau of
Investigation, Drug Enforcement Agency, and USAID are active in the working
group.

The working group conducts robust debates about proposals for new activities and
evaluates the outcomes and lessons learned of technical assistance to ensure atten­
tion to policy objectives. It sets the stage for timely executive office decision making.
Participants in the working group consult other foreign donors to coordinate efforts
and leverage limited resources. Helped by U.S. resources, Indonesia has undertaken
various criminal and antiterrorism operations, has advanced legislative reforms, and
has been working to revise judicial procedures. The OIG team commended this


          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   23


                 SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     working group for its practice of disseminating agendas in advance and distributing
     the summary notes of its proceedings.




     ECONOMIC SECTION
     The economic section is a productive, collegial team that is keenly focused on
     strategic economic objectives. Economic officers and LE staff are creative and proac­
     tive. For example, the section began promoting entrepreneurship in Indonesia and
     seeking U.S. private sector partners months ahead of the Global Entrepreneurship
     Program that emerged from President Obama’s April 2009 Cairo speech. The
     section recruited temporary staffing support from the office of the Department’s
     Special Representative for Commercial and Business Affairs to organize large Global
     Entrepreneurship Program events planned for 2010 and 2011 in Indonesia.

     Washington end-users commend the economic section for providing “copious, timely
     information and valued insights suggesting next steps” on topics ranging from energy
     policy to parliamentary barriers to economic reforms. In addition to staffing success­
     ful negotiations for the re-establishment of Peace Corps after a 40-year absence, the
     economic section worked on the conclusion of bilateral agreements with the Overseas
     Private Investment Corporation and the U.S. Export-Import Bank, and on science
     and technology. The section managed a large amount of preparations for bilateral
     working groups of the Joint Commission that will be chaired at sub-cabinet levels by
     officials of the Departments of State and Energy and the Office of the U.S. Trade
     Representative.

     The counselor and deputy provide exceptional leadership. Many in the mission
     consider them accessible and highly valued mentors. They promote collaboration
     and information sharing. Members of the economic section have fostered work-life
     balance ahead of the rest of the mission. Staff in Surabaya praised the economic staff
     for ongoing close cooperation and timely guidance on a range of economic issues.

     The mission used the MSRP process successfully to justify an additional environ­
     mental, science and technology, and health (ESTH) officer position and additional
     LE staff positions. There are three full-time eligible family members (EFM) dedi­
     cated to ESTH work. A downside of relying on three EFMs in one section is the
     considerable investment of time required by officers to train EFMs. On the positive
     side, these EFM positions contribute to families’ morale at post.

     Approval of several tour extensions in the economic section has resulted in all six
     officers working on core economic issues transferring out in the summer of 2011.
     The current officers communicate well with other mission elements, but the risk



24             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED



exists that considerable expertise will be lost with the departure of so many officers
at once. To facilitate that transition and promote knowledge transfer, the OIG team
informally recommended that the economic cluster group institute the preparation of
agendas, the distribution of summary notes, and the filing of both.


Environment, Science, Technology, and Health
The staff of the ESTH unit, which is part of the economic section, conducts robust
policy advocacy to shape Indonesian positions on topics such as global climate change
and alternative energy technologies. Reporting and analysis on ESTH topics are well-
focused. ESTH officers also emphasize the importance of intellectual property right
enforcement with Indonesian contacts.

In reply to OIG team questions, ESTH staff members said they were not sure which
embassy elements were the lead implementers and what was the general magnitude of
the President’s Emergency Plan for AIDS Relief program. The ESTH unit struggles
to help rationalize the scope and amount of U.S. assistance to Indonesia that multiple
U.S. agencies are proposing to contribute for climate change mitigation and environ­
mental protection.

The ESTH staff does not obtain periodic updates about activities conducted by
dozens of U.S. technical agencies with Indonesian counterparts. Experts from U.S.
agencies may prepare trip reports or annual reports for their Washington offices, but
these reports are not routinely shared with the ESTH unit. Historical files do not
exist on what has happened in recent years. The OIG team informally recommended
that the ESTH staff ask U.S. experts to provide, where possible, summary reports on
their accomplishments listing what issues were discussed with whom and outlining
anticipated next steps with Indonesian partners; the economic section should retain
this information in its files.

ESTH activities take place throughout Indonesia, including in the Consulate General
Surabaya district. Often it is not easy to grasp the main research goals of particular
projects. The number of activities is difficult to inventory. Staff in the consulate
general asked for help in understanding aspects of ESTH activities and their relation
to the MSRP priorities and indicators. The OIG team made an informal recom­
mendation that the embassy arrange for an ESTH officer to consult at length with
American and LE staff of Consulate General Surabaya, perhaps by DVC, and explain
to them the MSRP policy linkages and content of the many ESTH activities in the
mission.




         OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   25


                SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



     FOREIGN ASSISTANCE

     Foreign assistance coordination is good overall, with input from relevant agencies
     into the MSRP and operational plan. The mission is well organized to provide robust
     emergency disaster and humanitarian assistance.


     USAID offices are located on the embassy compound, facilitating deliberations
     among mission elements on the scope and content of U.S. assistance. USAID person­
     nel participate in embassy senior staff meetings and working groups. The OIG team
     commends USAID for inviting staff in the constituent posts to join the meetings and
     site visits of projects being implemented in the Surabaya and Medan districts.

     Many assistance programs are “supply-pushed” by bureaus rather than being
     demand-driven according to core MSRP objectives. An illustrative case is the
     Biosecurity Engagement Program. The Bureau of International Security and
     Non-proliferation provided $1.7 million in FY 2010 for this program in Indonesia.
     The bureau makes funding decisions on an annual basis. The program aims to
     improve the capabilities of Indonesian scientists to identify biological agents of
     proliferation concern. This cooperation with Indonesia may indeed serve U.S. policy
     interests, and the Biosecurity Engagement Program may be highly effective in gener­
     ating positive outcomes.

     Separately from USAID, an ever increasing number of other assistance activities
     are taking place. Political, economic, and ESTH officers are not as fully aware as
     they should be of activities funded by Department bureaus and through interagency
     agreements. Some have not had the necessary training to appreciate the importance
     of effective oversight.


        RECOMMENDATION 10: Embassy Jakarta should establish an assistance
        working group to evaluate which activities to undertake as contributing to core
        mission objectives and to determine whether staffing is adequate to conduct
        effective oversight. (Action: Embassy Jakarta)


     Monitoring and oversight responsibilities are discussed in the grants management
     portion of the management controls section of this report.




26            OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED



PUBLIC DIPLOMACY

The U.S. – Indonesia relationship will be a key one as the 21st century progresses. A
strong public diplomacy effort is in the U.S. national interest. Embassy Jakarta has
a large and mostly experienced staff in PAS. The breadth of the public diplomacy
program and the demands on PAS officers and LE staff are stressful, but morale is
good, bolstered by a sense of accomplishment and the knowledge that the section
is making an important contribution to U.S. engagement with Indonesia. Public
diplomacy efforts benefit from high favorable public perceptions of the United States.
The challenge is to maintain and build on that opportunity.




@AMERICA
@america is a unique and innovative public diplomacy initiative. Funded by the
Under Secretary for Public Diplomacy and Public Affairs, it is an outreach tool
designed to go to the target audience of Indonesians aged 15 to 30 at a shopping mall
and social spaces on the Internet and to engage them in their areas of interest. The
embassy is relying primarily on private partners to provide the content to keep things
interesting.

Through a strong online presence, @america will reach out to Indonesians outside
the capital and offer them the chance to experience the programming virtually. After
moving into its new consulate compound, Consulate General Surabaya will provide
the @america experience through real exhibitions and DVCs. @america is also


         OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   27


                SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     designed with an auditorium and exhibition space to be used as a primary venue for
     PAS educational programs, cultural tours, and press briefings.

     Although support to @america is in the work requirements of the principal officers
     of Consulate General Surabaya and APP Medan, it was not clear at the time of the
     inspection how these officers were to be held accountable for implementing this
     requirement. The OIG team made an informal recommendation to the embassy that
     it should clarify to the constituent posts how they incorporate, on a second-hand
     basis, content from @america at their posts and at the American Corners.

     @america is equivalent to running, on an extended daily basis, a U.S. pavilion at a
     major trade fair. It has been, and continues to be, a whole-of-mission effort. Its direct
     budgeted cost is $6 million, plus $2 million a year in the out years. @america differs
     from traditional American cultural centers in location and reliance on public-private
     partnerships to provide content without cost or at concessional rates. It is partnering
     with American high technology enterprises and creators of informational entertain­
     ment, American museums, universities, and nongovernmental organizations.

     @america will be operated by contractors under the close guidance and direction of
     the PAS. A PAS officer will be the contracting officer’s representative for monitoring
     contractor performance.

     Appropriately, security considerations have been foremost from the inception of @
     america. A more detailed discussion of security issues is provided in the classified
     annex of this report.


     @america Performance Measurement and Policy Guidance
     The embassy intends for @america to support a number of MSRP goals and objec­
     tives, among them promoting education and mutual understanding and improving
     positive opinions of the United States. The Under Secretary for Public Diplomacy
     and Public Affairs is providing policy guidance. Embassy Jakarta plans to provide
     on-the-ground policy guidance by continuing to have the embassy’s @america task
     force meet with the contractor’s representatives and by having PAS officers provide
     oversight.

     Performance measurement for this unique experiment will be essential to verify
     that @america is accomplishing the goals set for it. The Under Secretary for Public
     Diplomacy and Public Affairs has taken the lead with its metrics, monitoring, and
     evaluation unit by funding focus groups to ensure that programming and content is
     relevant and interesting.




28             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




   RECOMMENDATION 11: Embassy Jakarta, in coordination with the
   Office of the Under Secretary for Public Diplomacy and Public Affairs, should
   develop and implement, with the @america contractors, a plan for perfor­
   mance measurement of @america. (Action: Embassy Jakarta, in coordination
   with R)




EDUCATION
Promoting education is the number one goal in the MSRP, which includes the
target of doubling the annual number of Indonesian students in the United States
from 7,500 to 15,000 in the 5-year span between 2009 and 2014. Under the
Comprehensive Partnership, the United States has committed $165 million over 5
years, approximately $110 million of which is earmarked for university-level train­
ing. The embassy’s education working group includes PAS, USAID, and the Foreign
Commercial Service.

A number of structural impediments hinder the mission in reaching its target,
including differing policies between the Bureau of Education and Cultural Affairs
and Foreign Commercial Service on working with commercial recruitment agents;
cost and requirements to take the Test of English as a Foreign Language and aptitude
exams online, where not enough capacity in authorized testing centers is available;
a highly competitive student recruitment environment, where Australia waives visa
fees and does not require in-person interviews; and a widespread impression that
U.S. student visas are hard to obtain (despite a 90 percent approval rate). Given that
the doubling goal within 5 years may not be attainable—certainly not with U.S.
and Indonesian government grants alone—the OIG team suggested that the new
Ambassador and his team review the situation and draft a strategic plan.




EXCHANGE PROGRAMS
PAS Jakarta manages one of the largest exchange programs that the Bureau of
Educational and Cultural Affairs has with any country. The DCM chairs the inter­
agency committee that carefully selects the participants so that all geographic parts
and societal elements of this large and varied country are represented. The embassy
also manages a well-run alumni program that supports alumni organizations around
the country. Alumni are regularly invited to embassy and consulate events and are
used as speakers and other resources.

         OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   29


                SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     The American Indonesian Educational Foundation implements the binational
     Fulbright Commission program for a two-way exchange of students and senior
     scholars. The United States contributes disproportionately more than the Indonesian
     Government. The U.S. contribution of more than $8 million per year is the largest
     U.S. contribution to a binational Fulbright Commission in the world. Until FY 2010,
     the Indonesian Government had only contributed office space to the foundation. In
     FY 2010, the Government of Indonesia stepped forward with funding for 18 students
     and is expected to fund another 35 to 40 students for graduate studies in the United
     States in FY 2011. In addition, some provincial governments and ministries have
     independently funded training opportunities either in concert with the foundation or
     as separate initiatives.




     INFORMATION RESOURCE CENTER AND AMERICAN
     CORNERS
     Embassy Jakarta has an active Information Resource Center, which includes a refer­
     ence library and workstations for visiting researchers. The center also manages 11
     American Corners located in nine cities. An annual conference of the directors of the
     American Corners is organized and funded by PAS as a way to energize the direc­
     tors, share programming ideas, and strengthen contacts with embassy management.
     Consulate General Surabaya will have its own Information Resource Center in its
     new building. The embassy will work with the consulate general to stock the new
     center and train a new LE staff director.

     American Corners are an important outreach tool. Although managing 11 American
     Corners is a challenge in itself, the embassy would like to set up American Corners
     in Papua, a politically sensitive region where official U.S. access has not always been
     possible, and in Kalimantan, where the embassy conducts frequent outreaches.
     The OIG team visited two American Corners in Medan and one in Surabaya. One
     American Corner in Medan was identified as underperforming. However, the OIG
     team found it to be an actively used facility, with good space in a prime location on
     the campus of the largest university on Sumatra. The OIG team informally recom­
     mended that the embassy coordinate with APP Medan to address personnel concerns
     and reinvigorate the programming at that American Corner.




30             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



SOCIAL MEDIA
When it comes to social media this mission is number one. Embassy Jakarta’s
Facebook site has more than one million fans, which is more fans than any other
U.S. embassy Facebook site. Consulate General Surabaya’s Facebook site comes in a
strong second. In fact, the Facebook pages for the embassy and its constituent posts
have more fans than all other U.S. missions combined. These results are due in part
to the creativeness of the PAS staff in keeping the sites fresh and interesting, includ­
ing running contests that spike participation such as the “golden ticket” contest that
offered trips to the United States. To build on that success, PAS recently created and
filled a new LE staff position for social media.

Indonesia is second in the world in terms of overall use of Facebook, and it has
the third largest Twitter community. Even though Indonesians have relatively low
Internet access from desktop and laptop computers (about 13 percent), about 150
million Indonesians have mobile telephones and use them to access the Internet and
make Twitter “tweets.” By contrast, YouTube is less effective because of the limits in
using mobile telephones to view YouTube.

PAS is the primary sponsor of Pesta Blogger plus, a ten-city road show that strength­
ens civil society and builds capacity, capability, and encourages networking among
the blogging community, Facebook fans, and the Twitter tweeting communities. An
OIG team member observed the Pesta Blogger plus event in Surabaya. An important
side benefit of expanding the Indonesian blogging community is that, on their own,
they blog about political and social issues, in addition to the more mundane social
rites of passage and interests of the youth demographic that are the principal users of
this medium.

The OIG team informally recommended that PAS take the next step of going
beyond celebrating the number of Facebook fans to attempt to measure how effective
the mission is in using social media to affect opinions of the United States and U.S.
policy.




INDONESIAN MASS MEDIA
Indonesia has a vibrant free press spanning print media, broadcast media, and
Web-based media. The information officers in PAS, together with their LE staff
proactively engage with the media on an almost daily basis. Contacts with journalists
and editors are strengthened by the use of the exchange visitor program and a special




          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   31


                 SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     program of “TV co-ops” in which PAS, with assistance from the Department, pays
     for an Indonesian television crew to go to the United States and produce a program
     on a specific, agreed upon topic to be aired in Indonesia. Recently, PAS developed
     and began using a media tracker that includes positive and negative evaluation of
     news articles on embassy initiatives, the United States, or U.S. policy. The OIG team
     made PAS aware of how Embassy Madrid’s PAS has applied metrics to its media
     tracking as an example of how the Jakarta media tracker could be further refined
     to yield more useful measures that could be tracked over time and used as a perfor­
     mance indicator in the MSRP.




     PUBLIC DIPLOMACY AT AMERICAN PRESENCE POST
     MEDAN
     APP Medan is very active with its public diplomacy outreach thanks to an energetic
     principal officer who is also a public diplomacy-coned officer. His intervention with
     one governor in his district resulted in a commitment to fund 75 scholarships in the
     United States over a 2-year period. He has worked closely with the local American
     alumni association as a force multiplier that paid handsome dividends. On short
     notice, he programmed an American hip hop group, which played to a large audience
     in Sumatra and received good media coverage. He also organized another successful
     event with the group in Medan with assistance from other partners. One resource­
     ful initiative of the principal officer was to organize a five-city university tour of the
     United States for prospective college students and their parents. The trip was fully
     funded by the participants. All of the student participants returned vowing that they
     would only attend an American university.

     APP Medan does not have a separate Web page. Rather, it has a page on the Embassy
     Jakarta Web site that is rudimentary and inadequate. There are 43 virtual presence
     posts and most have far better Web presences. APP Medan’s meager Web presence
     is minimizing opportunities for the post to tell its story and amplify its outreaches.
     There are 10 APPs worldwide. The Bureau of International Information Programs
     can create a template for an APP Medan Web site using the content management
     system. APP Medan would provide the content to the Embassy Jakarta PAS webmas­
     ter, who would support it.


         RECOMMENDATION 12: Embassy Jakarta, in coordination with the
         Bureau of International Information Programs, should develop a standalone
         Web site for American Presence Post Medan. (Action: Embassy Jakarta, in
         coordination with IIP)



32             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED



PUBLIC DIPLOMACY AT CONSULATE GENERAL
SURABAYA
Consulate General Surabaya’s PAS currently operates in extremely cramped condi­
tions, which will change when the consulate general moves into the new consulate
building. There PAS will have programming spaces it currently lacks, including an
Information Resource Center and a multipurpose room. An LE staff position will be
added to staff the Information Resource Center. The OIG team informally recom­
mended that the consulate general plan an access and use strategy for the new center
and multipurpose room facilities.

At the time of the inspection, Consulate General Surabaya had not yet fully devel­
oped how it will take advantage of the @america experience. Potentially, the PAS
multipurpose room could be a magnet for attracting the audience that @america is
designed to influence. In the end, the consulate general may need to add additional
staff to assist with intermittent exhibitions that have run their course at @america
and are then sent to Surabaya.

The new consulate compound is located in an exclusive, hard-to-reach part of
Surabaya. The OIG team informally recommended that Consulate General Surabaya
develop programming partners, in addition to maintaining the principal officer’s
centrally located residence as a programming platform, to avoid the possible drift
toward an unintended focus on elite audiences following its move to the new
building.

The near-term future will result in a larger public diplomacy role for Consulate
General Surabaya based on a greatly improved public diplomacy platform and addi­
tional LE staff. This expanded role requires a mid-level officer to manage and take
advantage of the opportunities. The current public affairs officer, who was observed
to perform at a high level, is a first-tour ELO. Her predecessor, who curtailed, was
also an ELO.


   RECOMMENDATION 13: Embassy Jakarta should assess position number
   60036007 (Surabaya public affairs officer) to determine whether to request a
   change in the classification level of the position to FS-03. (Action: Embassy
   Jakarta)




         OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   33


                SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



     INTERNATIONAL BROADCASTING
     The Broadcasting Board of Governors has a presence in Indonesia through three
     entities: a Voice of America news bureau (worldwide English), a Voice of America
     Indonesian language service office, and an International Broadcasting Bureau
     satellite office of Marketing and Program Placement. During the inspection the
     language service office and the Marketing and Program Placement staff combined
     to host a conference of Voice of America radio and television affiliates in Surabaya
     and Bandung. Since the Marketing and Program Placement office and the Voice of
     America News Bureau are supervised from offices in Bangkok, Thailand, a detailed
     report on their operations and of the language service office will be included in a
     separate OIG report on Broadcasting Board of Governors’ Operations in Thailand
     and Indonesia.




     CONSULAR AFFAIRS
     Providing consular services in Indonesia is a challenge. Vast distances make provid­
     ing services to American citizens difficult and time-consuming. Crisis management
     is more than a theoretical possibility. The mission must always be prepared to react
     to natural disasters, such as volcanic eruptions and tsunamis, and terrorism. Visa
     services are complex. The mission processes one of the largest numbers of security
     advisory opinions (SAO) in the world, leading in part to complaints by senior
     Indonesian government officials about perceived “visa delays.”

     In the face of these many challenges, consular leaders in Embassy Jakarta are not as
     engaged and effective as they should be. The stress on the section is compounded
     by an insufficient number of managerial positions, poor internal communications,
     confused lines of authority, and inefficient NIV procedures. The embassy’s visa
     referral policy does not comply with Department policy and regulations. By contrast,
     consular operations in Consulate General Surabaya and Consular Agency Bali are
     excellent. Countrywide consular coordination is virtually nonexistent.




     COUNTRYWIDE CONSULAR COORDINATION
     The Bureau of Consular Affairs (CA) has stated that the FE-OC consul general in
     Embassy Jakarta is the countrywide consular coordinator for Indonesia. The consul
     general’s work requirements statement does not contain those duties and, in practice,
     he is not fulfilling them.


34            OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



The U.S. mission in Indonesia provides varying levels of consular services at four
facilities. Embassy Jakarta provides the full range of NIV, immigrant visa (IV),
and American citizens services. It also processes all consular services for Embassy
Dili. Consulate General Surabaya provides NIV and American citizens services and
directly supervises the consular agency in Bali, which provides emergency services
to Americans, performs notarial services, and accepts passport and consular report
of birth abroad applications for processing in Surabaya. APP Medan only provides
emergency services for American citizens. It is not authorized to perform non-
emergency services for Americans, such as passport and citizenship applications and
notarials. It does not have a traditional consular district.

The consular sections in Jakarta and Surabaya operate independently. Employees in
Surabaya have been unsuccessful in their efforts to seek guidance and oversight from
Embassy Jakarta. Consular managers in Jakarta rarely answer emails or phone calls
from Surabaya. The consul general visited Surabaya only once since his arrival in the
summer of 2009 and when he did so he did not meet with the LE staff. He has not
returned to Surabaya since the arrival of the new consular section chief and the new
principal officer in the summer of 2010. The consul general has never visited the
consular agency in Bali. He has also never visited APP Medan, where the staff was
conducting unauthorized consular activities; this issue is discussed further on in this
section.

The lack of countrywide coordination is all the more serious given the fact that the
frequent backlogs in NIV appointments in Jakarta mean that up to 40 percent of
the applicants in Surabaya come from Embassy Jakarta’s consular district. Despite
efforts by Surabaya to coordinate with Jakarta on visa issues, Jakarta has not been
responsive.

The OIG team compared the work requirements statements for the current consul
general and his predecessor. The work requirements for the previous consul general
stated that the officer “provides consular guidance and supervision to Consulate
General Surabaya, Consulate Medan, Consular Agency Bali, and consular oversight
for Embassy Dili. He is responsible for ensuring coordinated implementation of
consular policies and procedures at all supervised posts.” The work requirements for
the current consul general have none of that language and only contain a reference
to him serving “as senior consular officer in Indonesia” without specifying what that
entails. The OIG team also noted that the consul general prepared a detailed memo­
randum for the new Ambassador in August 2010 that discussed various consular
issues in Jakarta but made no reference to consular operations in Surabaya, Bali, or
Medan or the embassy’s special consular support for Embassy Dili.

The work requirements for the FS-02 position of the deputy consular section chief in
Jakarta state that the officer is to “liaise with other mission posts, Surabaya, Medan
and Dili, on consular matters. Coordinates adjudication standards and arranges


          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   35


                 SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     temporary assistance in case of staffing gaps or emergencies.” The deputy section
     chief is not fully carrying out these duties either, but it should be the consul general
     who performs them.

     When the inspectors discussed the above with the consul general, he replied that he
     did not know he was supposed to be the countrywide consular coordination because
     no one had told him he had that responsibility. The OIG team made an informal
     recommendation that the embassy revise the work requirements statement for the
     consul general position to designate clearly the responsibility of that officer for coun­
     trywide coordination of consular operations in Indonesia and supervision of Embassy
     Jakarta’s consular support for Embassy Dili.


         RECOMMENDATION 14: Embassy Jakarta should prepare and implement
         a travel plan for the consul general that would involve at least two trips per
         year to consult with consular officers and locally employed staff in Surabaya,
         one trip per year to consult with the consular agent and locally employed staff
         member in Bali, and one year trip per year to consult with officers and locally
         employed staff in Medan. (Action: Embassy Jakarta)


     An example of the lack of coordination is the country specific information sheet on
     Indonesia found on the Department’s Web site which states that Americans enter­
     ing Indonesia need a blank visa page in their passports. This information is partly
     inaccurate, because the immigration authorities in Bali (the primary destination in
     Indonesia for American tourists) have decided that applicants entering the country
     need two blank pages in their passports. American tourists have been refused entry
     to Indonesia because of this problem, and some have protested that they were misled
     by the information on the Department’s Web site. Consulate General Surabaya has
     made several unsuccessful attempts to have Embassy Jakarta amend the country
     specific information sheet.


         RECOMMENDATION 15: Embassy Jakarta, in coordination with the
         Bureau of Consular Affairs, should amend the country specific information
         sheet on Indonesia to reflect accurate information on what American citizens
         need to enter the country through Bali. (Action: Embassy Jakarta, in coordi­
         nation with CA)


     Consular officers in Surabaya and Jakarta would benefit from exchanges, which
     would be beneficial to their professional development, would boost morale, and
     would assist in creating uniformity of standards and practices between the two posts.


36             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



The OIG team could not find any examples of such exchanges. Right now, newly
arrived consular officers in Surabaya come to the embassy for two days, primarily
for administrative processing and courtesy calls. During the tours of those officers,
there are no other regularly scheduled visits to Jakarta. Interactions between the two
consular sections are rare. LE staff members may talk to their counterparts doing the
same work no more than once or twice per year.

Bali has the largest number of emergency ACS cases in Indonesia, yet the consular
agent there has not had consultations in the embassy in nearly 2 years on the job.
This is even more striking given the fact the he often supports official visits to Bali
by embassy officers. He has had consultations in Surabaya, which is the supervisory
consular post for Bali. The section in this report on Consular Agency Bali discusses
further the outstanding support Consulate General Surabaya provides to the consular
agency.


   RECOMMENDATION 16: Embassy Jakarta should establish and imple­
   ment a program of regular consultations at the embassy for consular officers in
   Surabaya and the consular agent in Bali and a program of exchanges between
   consular officers in Jakarta and Surabaya. (Action: Embassy Jakarta)



Consular Services in Medan
During the inspection, the OIG team learned that APP Medan had been perform­
ing routine passport, citizenship, and notarial services for American citizens in
Sumatra. Guidance in 2 FAM 133.2 b. (5) states that one of the key concepts
associated with APPs is: “No visa or routine passport/ACS operations: provision of
emergency American citizens services only.” Consular managers explained that they
had inherited the practice in APP Medan and had not questioned it. The OIG team
confirmed with CA that the bureau was not aware that APP Medan was performing
non-emergency American citizens services and that it had not authorized the post to
provide such services.

Because APP Medan had never been authorized to accept consular cash payments,
the post does not have an automated cash receipt system for generating consular cash
receipts. The employees devised a process in which the applicant for a service paid
the fee and was given an informal receipt. The employees were not following the
basic procedures established in the Consular Management Controls Handbook under
7 FAH-1 H-725 b. for handling consular cash when not using an automated cash
receipt machine. These regulations require the same level of management controls
as when using such a machine, including retention of records. The employees would
not keep a copy of the receipt given to the applicant. The cash was sent to Embassy


          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   37


                 SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     Jakarta by courier service or through the diplomatic pouch. Upon receipt of the cash,
     the consular cashier in Jakarta would record the payments in the automated cash
     receipt system and send a copy to APP Medan. The clear problem with this process
     was that the cash could have gone astray at any point and there would have been no
     clear accountability for the loss.

     When the OIG team inspected APP Medan, it told the officers there to cease all non-
     emergency ACS work, to cease established public hours for consular services, and to
     cease taking any consular cash—since emergency services for American citizens are
     not fee-based services.

     A separate issue is that there is no clarity between Jakarta and Medan on when (or
     whether) Jakarta assumes direct responsibility for services to an American citizen.
     When an American citizen is arrested, for example, the immediate handling of the
     case (including efforts to obtain access to the American) constitutes an emergency.
     If the American is to remain in detention for any length of time, however, the case is
     no longer an emergency, and Embassy Jakarta needs to assume management of the
     case. When the OIG inspectors asked how this transition would be handled, they
     did not receive clear answers. In addition, APP Medan needs to report problems that
     American citizens are having in Sumatra by email or phone call to Embassy Jakarta
     so that the embassy can relay the information to the Department. APP Medan
     does not have access to the computerized system for reporting ACS cases to the
     Department.


        RECOMMENDATION 17: Embassy Jakarta should create and implement
        a standard operating procedure that details how American Presence Post
        Medan should report emergency services to American citizens in Sumatra to
        the consular section in Jakarta and defines the responsibilities of each post in
        specific types of cases. (Action: Embassy Jakarta)


     As part of his countrywide consular coordination duties, the consul general should
     visit APP Medan at least once per year to consult with employees and to review poli­
     cies and procedures. When the OIG team asked the consul general why he had not
     visited Medan, his answer was that “Medan does not do consular services.” In fact,
     even after the changes made as a result of the OIG inspection, Medan will continue
     to provide emergency services to American citizens. The consul general therefore
     needs to stay involved with that post, as noted in Recommendation 14.




38             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



CONSULAR LEADERSHIP
The consul general has instituted some changes that have been positive. For example,
he created a rotation system within the section to provide managerial experience
and the professional development of the ELOs. There was no such system when he
arrived. He worked with PAS to ensure that updated, accurate information about the
consular section was included on the embassy Web site.

The embassy has an extremely dedicated, hard-working group of ELOs and LE
staff who do their best to provide excellent service to the public. Their efforts are
hampered by leadership problems. More than one employee noted that the consul
general sometimes conveys an attitude of not caring about the work, which has not
inspired some of the staff. The consul general characterized his preferred manage­
ment style as “hands off.”

In other cases, however, the consul general has mandated policies and procedures
(such as the management of the NIV appointment system and the continued use
of a bank teller in the consular section) that have had the unintended consequence
of hindering the effectiveness of the operations. The section on NIV processing
discusses these issues in detail. Some policies and procedures, such as in the visa
referral process discussed below, are contrary to Department regulations.
(b)(2)(b)(5)




       General staff meetings are rare and team-building social events even rarer.
Although the consul general has an open door policy, he rarely circulates through the
section and does not follow the consular tenet to lead by example.

Consular-section-wide meetings are scheduled once a month but are often canceled.
Senior staff meetings are held once a week and include the unit section chiefs as well
as the senior LE staff, who are expected to report results to the rest of the LE staff.
These meetings are held in the consul general’s office and represent the only direct
interaction the consul general has with local staff. Managers rarely spend time on the
visa line except when conducting interviews for some referral cases. Neither supervi­
sor directly works with new officers to observe NIV interviews, but the deputy does
walk new officers through the steps in IV and ACS work.




           OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   39


                  SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     CONSULAR MANAGEMENT

     The consular section has operated for years with an insufficient number of mid-level
     managers. The section has a senior-level consul general, an FS-02 deputy, and eight
     ELOs. The ELOs are almost always on their first tours. The bulk of the workload is
     in the NIV unit. Consular managers have delegated the day-to-day supervision of the
     NIV unit in Jakarta to a first-tour ELO. The ACS and IV units have much smaller
     workloads but are directly supervised by the deputy due to the complexity of issues in
     those areas.

     CA sent consular management and assistance teams to Jakarta in 2005 and 2008.
     Both teams gave opinions that Jakarta needed a second mid-level consular manager
     position. The second team noted that this was a repeat of a recommendation that
     had been made by the team from 2005. Embassy Jakarta could not find any record
     that a formal request for such a position had been made. During the inspection, the
     embassy submitted a request to have an ELO position reprogrammed to a mid-level
     position. In the opinion of the OIG team, the mid-level position is needed but the
     section cannot afford to lose an ELO position as that would hinder the ability of the
     consular section to keep up with the NIV adjudication workload. It would be better
     if the section kept the current number of ELOs and had an additional position at the
     mid-level.


        RECOMMENDATION 18: The Bureau of Consular Affairs, in coordina­
        tion with the Bureau of Human Resources and Embassy Jakarta, should
        approve Embassy Jakarta’s request to establish an additional consular manager
        position, but it should do so by creating a new position rather than reprogram­
        ming an entry-level position. (Action: CA, in coordination with DGHR and
        Embassy Jakarta)



     Confused Lines of Authority
     The consular section is hampered by confused lines of authority. In addition,
     consular managers have delegated inappropriate levels of supervisory authorities to
     ELOs over other ELOs. The organization chart shows that the NIV chief and the
     fraud prevention manager, both of whom are ELOs, report directly to the consul
     general and that the NIV chief supervises five ELOs. The work requirements state­
     ments for the ELOs state that they work (depending on their rotation) “under the
     direct supervision of the consul general, deputy consul general, or NIV unit chief.”
     In interviewing ELOs, it was clear to the OIG team that they looked to their first-
     tour colleague as their supervisor. The organization chart that the consular section



40             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



prepared for the 2009 consular package showed the NIV chief as equivalent to the
deputy and as the supervisor of five other ELOs.

To compound the confusion, the deputy is the rating officer for all the ELOs in the
section, even though he does not supervise many of them. NIV officers tend to go to
the deputy more than to the consul general for advice and decisions, even though the
consul general is their direct supervisor.

The deputy supervises the two smallest units in the section, ACS and IV, but he does
not use his time well. He often serves as the line officer for that work. Part of the
reason for that has been that one of the ELOs in the deputy’s units has been on leave.

The solution should be to turn the role of the deputy into a true deputy position, as
it is in most consular sections. This solution would have several benefits: the super­
visory relationships would conform to the performance evaluation relationships, thus
eliminating the current anomaly where the deputy rates officers who he does not
supervise; the deputy would be able to redirect resources as needed more efficiently;
and the deputy could provide more active oversight of the NIV unit. The OIG team
made an informal recommendation that the embassy amend the supervisory relation­
ship in the consular section so that the deputy consular section chief would supervise
all units and all ELOs in the consular section and amend the deputy’s work require­
ments statement accordingly.

The confusion is reinforced by the method used for the required review of visa adju­
dications. The consul general reviews the line officers’ NIV issuances and the deputy
reviews the refusals. This decision has prevented both officers from having a holistic
view of the work of individual officers. If either manager has a question or issue
with a decision made by an ELO, they task the NIV chief (an ELO) to counsel that
officer, which is not an appropriate duty for an ELO. According to 9 FAM 41.113
PN17.1 and 9 FAM 41.121 N2.3-7, reviews must be made by a consular supervisor.
ELOs cannot supervise other ELOs. In addition, the same NIV chief has the “NIV
manager” role in the computer system and has reviewed adjudication decisions by the
other ELOs, which is also an inappropriate duty for an ELO. The OIG team made
an informal recommendation that the role of the ELO be changed in the computer
system so that he does not have access to the review function.

The team also informally recommended that the embassy create and implement a
standard operating procedure in which the deputy consular section chief would be
the primary officer for reviewing nonimmigrant visa adjudications made by consular
officers and should counsel officers directly on their decisions. The standard operat­
ing procedure should specify that the consul general would be the backup officer for
these duties and no ELOs should perform these duties.




          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   41


                 SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     The role of the consular cashier is a particular example of the confused lines of
     authority. She is also responsible for preparing notarial documents for officer signa­
     tures, which is a routine ACS function, but she does not have an LE staff supervisor.
     She reports directly to the deputy section chief, who is listed in her work require­
     ments as both the rater and reviewer on her performance evaluation. The senior ACS
     LE staff member does not supervise the cashier/notarial employee, even though a
     substantial portion of the latter’s duties are ACS responsibilities. This negates the
     ability of the senior ACS LE staff member to supervise all the work of the unit. The
     OIG team informally recommended that the consular cashier be placed under the
     supervision of the senior ACS LE staff member.

     There are two LE staff secretary positions that report directly to the consul general
     per their work requirements, but are rated by the deputy. Both positions have respon­
     sibilities for maintaining the NIV emergency appointment system, which includes
     applications made through the referral process. One position is responsible for coor­
     dination with the bank on problem cases and both are tasked with coordinating with
     the guards to confirm appointment lists. The NIV senior LE staff and individuals
     conducting intake are not included in this coordination and are not always aware
     that emergency appointments have been granted.


        RECOMMENDATION 19: Embassy Jakarta should create and implement
        a standard operating procedure that would require all coordination with the
        local guards on emergency visa appointments be handled by the nonimmi­
        grant visa unit. (Action: Embassy Jakarta)


     In June 2009, the Under Secretary for Management directed that CA be charged
     its own, separate bill for International Cooperative Administrative Support Services
     (ICASS). CA directed all consular sections to designate an ICASS representative
     and to become familiar with the workings of ICASS at post. Embassy Jakarta has
     designated the consul general as the representative and he signed the work counts
     in a timely manner. Further discussion of consular participation is addressed in the
     ICASS section of this report.




     NONIMMIGRANT VISA PROCESSING
     The NIV processing procedures in Embassy Jakarta’s consular section inhibit effi­
     ciency and create unnecessary impediments to improved customer service.




42             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



The first problem is that the embassy instituted an off-site fee collection service with
a local bank in 2009, but the embassy did not gain the full advantages it could have
from this contract. The consul general opted to retain a bank teller onsite, allowing
applicants to continue to pay application fees at the embassy if they had not already
paid at the bank. Thus, the bank still has a teller onsite in the first set of windows
that are otherwise used by LE staff to do the initial intake processing of NIV appli­
cations. Some applicants choose for their own convenience to pay at the embassy.
The bank teller is also responsible for collecting any differential fees owed under
the new tiered fee schedule and checking that the offsite fee receipts are correct. All
visa applicants are required to go to the bank window after intake, which requires
doubling back to the first window and creating bottlenecks. The bank teller collects
all passports and ancillary documents for pick up by another LE staff member who
comes outside periodically. It is inappropriate to use the bank teller in this way. In
addition, the contract with the bank for the off-site fee collection service did not
make any provision for the bank to continue to collect fees at the embassy.

The OIG team would have formally recommended ending the practice of having a
bank teller in the consular section, but it did not do so because the mission was due
to start receiving services at the end of 2010 under the new Global Support Services
contract created by CA. This service will supplant the bank collection contract, and
the OIG team assumes the GSS contractor will not continue this practice of collect­
ing visa application fees at the embassy. The OIG team made an informal recom­
mendation that the consular section immediately stop the practice of allowing visa
applicants to pay their fees onsite and that the window currently used by the bank
teller be used to help with intake. Applicants who have paid an incorrect amount at
the bank, which should be a small number of people, will pay the difference at the
consular casher window.

The second problem is the schedule for the visa appointment calendar. Most NIV
applicants can only apply between Tuesday and Friday each week. They must
choose among three times between 7:00 a.m. and 8:30 a.m., with the bulk of the
numbers allotted for 7:00 a.m. When applicants arrive, local guards check to see if
an applicant has an appointment, but they do not enforce the appointment times.
Applicants with 8:30 a.m. appointments are allowed in at 7:00 a.m. if they show up
then. The number of people who show up before 7:00 a.m. is often well over 200.
This clumping of all applicants early in the morning negates the advantages of having
appointments with staggered hours. An additional problem, however, is that on
three of those four days per week the embassy also schedules crewmen1 interviews
at 7:00 a.m. Embassy Jakarta processes over 5,000 crew visa applications each
year, constituting more than 10 percent of the its annual NIV workload. They are


1
 A crewman visa is for an individual whose service is necessary for the normal operation of a ship or aircraft.
Normal operation depends on the type of vessel. For example, a waiter on a cruise ship would qualify as a
crewman.



             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   43


                    SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED


     processed before the rest of the applicants, even though the majority of the latter
     have 7:00 a.m. appointments.

     The net result of all this is that the lines of visa applicants are long and resemble how
     visa lines looked before consular sections had appointment systems, which projects a
     negative image for the embassy.


         RECOMMENDATION 20: Embassy Jakarta should space out the nonimmi­
         grant visa appointment times up to 10:30 in the morning and enforce arrival
         times. (Action: Embassy Jakarta)


     The third problem is that Mondays are reserved for applicants in the student visa
     program and the business visa program. Those applicants do not need appointments.
     Individuals in those categories who are unable to apply on Mondays can send an
     email requesting a special appointment or use the regular appointment calendar.
     CA encourages all consular sections to have a procedure to ensure that students
     and businessmen do not have to experience delays in obtaining NIV appointments.
     Embassy Jakarta is complying with that mandate, but most consular sections comply
     by having separate appointment lists for students and businessmen.

     Embassy Jakarta’s current procedure means that the consular section never knows
     whether it will have too many or too few applicants until they show up. Because
     of that, no appointment slots for general visa applicants are offered on Mondays.
     During a significant part of the year, the number of applications is far fewer than the
     section’s processing capacity. For example, on one Monday during the inspection the
     section had 53 applicants to be interviewed by five consular officers. This is a serious
     underutilization of staff resources and is contributing to the growing backlog in NIV
     appointments.


         RECOMMENDATION 21: Embassy Jakarta should establish separate cate­
         gories of appointments for students, businessmen, crewmen, and other special
         visa categories to provide flexibility for applicants and to maintain control of
         the nonimmigrant visa workload. (Action: Embassy Jakarta)




         RECOMMENDATION 22: Embassy Jakarta should create appointment
         slots on Mondays for general visa applicants and monitor the appointment
         system regularly to ensure a balance between those appointments and those for
         students and businessmen. (Action: Embassy Jakarta)


44             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



A covered walkway around the intake area is where the main bottleneck takes place
every morning. Lines for the intake windows snake around to fit under the covered
area. The relatively narrow area is further limited by counters which were useful
when applicants had hardcopy applications and needed to make corrections but now
serve little purpose. An informal recommendation was made to remove the obsolete
counters to allow more applicants to comfortably fit under the covered walkway.

The crush of people inside the small interior consular waiting room is unnecessary
and does a disservice to the public. There are two separate consular waiting areas
for NIV applicants. An outside area has benches, food vendors, and bathrooms and
can accommodate 100 people. The inside area is small and cramped and is separated
from the equally small IV/ACS waiting area by a document stand. Applicants are
given a batch number as part of the intake process. In the interior waiting room, the
consular officers call applicants for their interviews by batch numbers, so each officer
usually has up to ten people standing in line bunched up in front of the window.
This creates another negative image for the United States. If the section had an elec­
tronic queuing system, it could better control the movement of applicants between
the outside waiting area and the internal waiting room.


    RECOMMENDATION 23: Embassy Jakarta, in coordination with the
    Bureau of Consular Affairs, should install and use an electronic queuing
    system for the waiting areas in the consular section. (Action: Embassy Jakarta,
    in coordination with CA)


Applications are uploaded into the consular electronic application center at the intake
window on the day of the initial appointment. Intake is performed by visa assistants
on a rotating basis. The forms are checked for completeness of information. Some
questions on the electronic application form DS-160 prompt additional questions;
applicants who have not correctly completed the form may be given an “invitation to
return” and instructed to complete a new DS-160. A further discussion of problems
involving incomplete applications and a recommendation is contained in the annex
to this report.

As noted in the Executive Direction part of this report, the embassy had planned
a visit by President Obama several times in the past year. Each time a visit was
planned, the consular section blocked out a three-week period of time during which
no appointments were available. Since May 2010, Mondays have also been taken off
the appointment calendar. The unintended result is that the wait time for regular
applicants has grown. The consular section has not been accurately reporting these
ballooning wait times.




          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   45


                 SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     At one point during the inspection, the wait time had grown to over 40 days but
     the embassy public information said the wait time was two days. At another time
     during the inspection, the wait time had grown to 50 days. Only five appointment
     slots remained, as the embassy had not offered appointment slots beyond the 50th
     day. The OIG team alerted the consular officers that based on the rate of usage, the
     public would not be able to make appointments sometime in the next few minutes.
     It would be inevitable that the embassy would start receiving complaints about this
     from the public. A consular officer immediately added more slots, but it seemed clear
     to the OIG team that the consular section needed to do a better job of monitoring
     the appointment system.

     The embassy advises applicants to check back frequently as slots are added from
     time to time. When that happens, the wait time is updated to reflect the additional
     numbers. Nevertheless, this is a misleading wait time, as those numbers are quickly
     booked. This understatement of the true average wait time is misleading to the
     Department and the public.


        RECOMMENDATION 24: Embassy Jakarta should report the wait times
        for nonimmigrant visa appointments based on Department guidelines and not
        record unrealistically short wait periods when fewer than 25 appointments per
        day are added to supplement the schedule. (Action: Embassy Jakarta)


     As noted previously, the consular section processes an unusually high number of
     SAOs. Most of the cases ultimately result in issuances, but it may take anywhere
     from a week to several months before the visa is actually printed. Because of the
     difficulties for applicants to return to the embassy, the consular section retains
     passports of all cases that have been sent for SAOs. Applicants who need to travel to
     other countries before their visas are ready may ask to “borrow” their passports. (b)
                                                                                                                            (2)
                                                                                                                            (b)
                                                                                                                            (5)




        RECOMMENDATION 25: (b)(2)(b)(5)
                           





46             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



VISA REFERRAL SYSTEM
Embassy Jakarta is not in compliance with the worldwide visa referral policy, which
is contained in 9 FAM Appendix K, Exhibit I, although Consulate General Surabaya
is in full compliance. The worldwide policy describes the criteria that must be met for
an applicant to qualify for a Class A or B referral2 and says that the referral mecha­
nism is the only appropriate method for any U.S. government employee to advocate
on behalf of an individual. It allows only general information about programs to
be provided in addition to referrals. Embassy Jakarta posted a standard operating
procedure on its intranet site after the issuance of the worldwide policy in July 2009.
The procedure designates a third category in addition to Class A or B referrals that is
called “lookouts” in which employees can provide “info to help us make a decision,
favorable or not.” This is in direct violation of the worldwide visa referral policy. The
OIG team pointed this out to the consul general, who defended the utility of the
“lookouts.”


     RECOMMENDATION 26: Embassy Jakarta should immediately cease
     using any other categories besides Class A and Class B referrals to allow
     mission employees to provide information on nonimmigrant visa applicants.
     (Action: Embassy Jakarta)


Embassy Jakarta delegated the adjudication of Class B referrals to the ELO NIV
unit chief, a rotating position created by consular management to provide manage­
rial experience to a first- or second-tour officer. 9 FAM Appendix K, 202 states that
“Class B referrals must be adjudicated by a tenured mid-level supervisory consular
officer or the consular chief of section, or someone acting officially in one of those
capacities. It is never appropriate for referral cases to be adjudicated by an entry-level
officer, unless there is no tenured mid-level consular officer at post.” When the OIG
team raised this issue with the consular managers, they reassigned the duties to a
newly tenured second-tour officer. The latter is not a mid-level supervisory consular
officer and this arrangement does not comply with the requirements stated above.
The OIG team informally recommended that the deputy consular section chief, or in
his/her absence the consul general, should adjudicate all Class B visa referrals.




2
  Class A referrals may be submitted for an individual who is personally known by an embassy officer and
whose travel directly supports U.S. national interest. Class B referrals may be individuals whose travel advances
U.S. national interests more broadly. The referring office does not need to know the individual personally,
but the referring officer must clearly state what the U.S. interest is. Class B referrals are requests for expedited
appointments only. The referring officer should not make a recommendation for issuance of a visa in a Class B
referral.



             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   47


                    SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED


     Department policy requires that the chief of the consular section conduct a referral
     briefing to each officer who is authorized to utilize the mission referral system before
     that officer can submit any visa referrals. Embassy Jakarta has delegated this function
     to an ELO.


         RECOMMENDATION 27: Embassy Jakarta should require that the consul
         general, or in his/her absence the deputy consular section chief, brief officers
         on the visa referral process before they receive authority to submit visa refer­
         rals. (Action: Embassy Jakarta)


     The worldwide policy allows consular sections to set their own internal procedures
     for the visa referral process, but Embassy Jakarta has established an inappropriate
     procedure that requires referring officers to submit complete information about
     potential applicants in advance of the actual referral for the purpose of running
     checks in the computer system. The consul general said this procedure allows the
     consular section to know in advance whether there is a problem with the applicant.
     This is counter to the purpose of the Class B referral policy, which is nothing more
     than a request for an expedited appointment and is not supposed to be a recommen­
     dation for issuance of a visa.

     This procedure is inappropriate for several reasons. Consular officers should not
     be informing referring officers of the results of the clearance. They should also not
     be determining whether an applicant is a “good case” or not prior to the interview.
     The regulations state that Class B referral applicants must establish their eligibility
     for a visa during the interview. Finally, this procedure creates unnecessary work for
     the consular section, as the clearance will have to be done again when the applicant
     comes in for the interview. The OIG team made an informal recommendation that
     this procedure be stopped immediately.

     Referrals can only be dropped off at a specified time by the referring officer and
     not by any other employee, such as an office management specialist, and must be
     dropped off in the consular waiting room. Employees have complained about waiting
     in long lines simply to drop off a referral. These are unnecessary requirements that
     hurt the credibility of the consular section in the eyes of the rest of the mission. The
     OIG team made an informal recommendation that a locked drop box for referrals be
     placed outside the chancery entrance to the consular section.

     Applicants who are applying under the visa referral process are not required to pay
     their visa application fees at the bank as all other applicants are required to do.
     Rather, they are allowed to pay their fees to the consular cashier. The implication
     in the worldwide policy is that referred visa applicants have to follow the same



48             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED


procedures as all other visa applicants, and the only procedural benefit from a referral
should be an expedited appointment.


    RECOMMENDATION 28: Embassy Jakarta should cease allowing referral
    visa applicants to pay their visa application fees to the consular cashier and
    should require them to pay their fees offsite at a bank in the same way that
    other visa applicants do. (Action: Embassy Jakarta)


The consular section has established a system in which mission employees request
expedited NIV appointments for friends and other contacts outside the visa referral
process. The consul general uses this system himself. He asks his secretary to set
up expedited appointments without doing referrals. The OIG team saw numerous
examples of other embassy employees besides the consul general using this process.
This system is directly contrary to 9 FAM Appendix K, Exhibit 1, which states: “The
visa referral mechanism is the only appropriate method for mission staff to advocate
on behalf of visa applicants…”


    RECOMMENDATION 29: Embassy Jakarta should create and implement
    a plan to enforce the requirement that all requests for expedited appointments
    by mission employees be through the visa referral process. (Action: Embassy
    Jakarta)


The expedited appointment system is available by writing to or emailing the consular
section. The standard reply states that expedited appointments can be made on a
space available basis for humanitarian reasons or for truly urgent business travel
(although business travelers can apply on any Monday without an appointment,
under the business visa program). The embassy standard operating procedures for the
business visa program allow spouses and unmarried children under 21 to be included
if they apply at the same time as the employee or if the employee already has a visa.
The procedures further state that friends, domestic helpers, or other relatives must
apply using the online appointment system for general visa applicants. The OIG team
found several examples in which friends and distant relatives of business visa appli­
cants were given expedited appointments without a referral. These procedures further
undermine the credibility and perceptions of fairness of the appointment system.




          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   49


                 SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




        RECOMMENDATION 30: Embassy Jakarta should enforce its own stan­
        dard operating procedures regarding who is eligible to use the expedited
        appointment procedures under the business visa program. (Action: Embassy
        Jakarta)


     Consular sections are required to closely monitor the use of the referral program and
     to enter referral documents in the computer system. The class of referral, either A
     or B, must be indicated, and the name of the person who made the referral must be
     selected from a drop-down menu that should only contain the names of individuals
     who have signed a written acknowledgement that they received a briefing. The actual
     referral and any supporting document must be scanned into the case and properly
     labeled. It is important that scanned documents be clearly identified by selecting the
     appropriate description during scanning.

     The OIG team reviewed a sample of referred cases in the computer system and found
     many cases in which no referral forms had been scanned into the system. In other
     cases, the scanned referral forms and accompanying documents were labeled incor­
     rectly as “application” or “employment documents.”


        RECOMMENDATION 31: Embassy Jakarta should create and implement
        a plan to enforce the requirement that the documents for all visa referral
        cases are scanned into the computer system and are properly labeled. (Action:
        Embassy Jakarta)




     VISAS VIPER PROGRAM
     Embassy Jakarta and Consulate General Surabaya held all required Visas Viper meet­
     ings and submitted all required reports on time. The committee is chaired by the
     DCM. The consular Visas Viper coordinator is the ELO fraud prevention manager,
     who works under the supervision of the consul general. Further discussion of the
     Visas Viper program is contained in the annex to this report.




50            OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



ASSISTANT REGIONAL SECURITY OFFICER­
INVESTIGATOR PROGRAM
Embassy Jakarta has an ARSO-I and a dedicated LE investigator. The ARSO-I is
rated by the consul general and reviewed by the regional security officer, which is
appropriate. He spends nearly 90 percent of his time in the consular section working
on fraud issues. He is fully integrated into the fraud prevention unit and works well
with the ELO fraud prevention manager. The ARSO-I program in Indonesia has had
excellent results since it was established 3 years ago. There have been some notable
successes and arrests by local authorities are always taken through to prosecution.

Because of the success of the program, the Department proposed two additional
ARSO-I positions for Indonesia. One will be placed in Surabaya and a second one
will be placed in Jakarta. Both officers in the new positions are scheduled to arrive in
2011. The addition of a position in Surabaya is especially helpful, given that a large
number of the NIV applicants in Surabaya come from Jakarta’s consular district. The
placement of an ARSO-I in Surabaya addresses a vulnerability in which Jakarta had
the resources to be more vigilant than Surabaya in fighting visa fraud. The embassy
anticipates that the ARSO-I program will be greatly strengthened by the addition of
these two officer positions; the OIG team concurs.




AMERICAN CITIZENS SERVICES AND IMMIGRANT VISAS
ACS and IV services are combined in one unit with two ELOs on a rotational sched­
ule who provide oversight. Four LE staff members work in the unit, two for ACS and
two for IV. ACS work is often difficult and time consuming because the consular
districts are vast and cover many islands that are difficult to access. Americans living
in Indonesia tend to be grouped in a relatively small number of locations. The larg­
est populations are in the Jakarta area, with other concentrations in the Moluccas,
Sumatra, Bali, and West Papua. Earthquakes are common occurrences, and the
embassy has had to dispatch teams to disaster sites on several occasions. Two ELOs
are assigned to this combined unit. The deputy consular section chief often handles
case work. Although he is leading by example, he is spending too much time doing
this type of work and not enough time serving as a manager. The OIG team made an
informal recommendation that he spend less time on case work.

The ACS unit processes routine passport cases, reports of birth abroad, and notarials.
The LE staff duties are divided between passport work and special citizens services,
which includes prison visits, warden registration, welfare and whereabouts cases, and
providing information to Americans about Indonesian laws and regulations. The



          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   51


                 SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     senior of the two staff members is also designated as the resource for counterparts in
     Surabaya and for the consular agent in Bali, but the staff in Surabaya rarely consults
     her and the consular agent never consults her.

     Notarial services, which are routinely provided by ACS units, are prepared by the
     consular cashier, who is not included in the staffing pattern for ACS. The cashier’s
     booth is her office and she has her ACS files stored there. This set-up is a problem
     because the cashier’s booth should not be accessible to non-cashiers, yet the ACS files
     should be accessible to the other ACS employees and their supervisor. The cashier’s
     booth is locked with a regular key lock. To ensure that it is properly restricted to
     the cashier, the entrance to the booth should have a cipher lock. The OIG team also
     made an informal recommendation that the ACS files be moved from the cashier’s
     booth so that other ACS employees could have access to them.


        RECOMMENDATION 32: Embassy Jakarta should install a cipher lock
        on the consular cashier’s booth and ensure that only the consular cashier
        and designated backup cashiers have access to the booth. (Action: Embassy
        Jakarta)




     CONSULATE GENERAL SURABAYA
     The small consular section in Surabaya is performing well under strong leadership.
     The newly arrived section chief inherited from her predecessor a section that was
     already in excellent shape. Building on that strong foundation, the section chief is
     doing a commendable job mentoring the ELO, who is also newly arrived. The LE
     staff is well trained and capable, and morale among all employees is high. During the
     inspection, the OIG team identified some procedures that needed to be refined and
     the section chief took steps immediately to address those issues.

     As in the rest of the consulate general, the space for the consular section is cramped
     and sorely inadequate. When the staff moves into the new consulate, the new
     consular section will have eight windows (as opposed to three in the current facility)
     and ample work space.

     The consular operations in Indonesia are operating at their capacity. In 2010,
     Embassy Jakarta has been unable to keep its NIV appointment backlog down to less
     than 30 days on a consistent basis. Any changes in resources, such as long absences
     or the need to support other mission activities, can cause the backlog to grow signifi­
     cantly. Between Jakarta and Surabaya, the consular officers are barely able to keep


52             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



up with the NIV demand. In addition, the consular section in Surabaya has been
experiencing a steady increase in ACS work in the past few years and had stated in
the last two consular packages and in the last MSRP that it would need an additional
ELO in the near future. 

The OIG team believes that an additional ELO consular officer position in Indonesia
is justified, but if a new ELO consular position is created, there are several reasons
why it should be placed in Consulate General Surabaya. For example, as stated above,
Surabaya has been experiencing a steady increase in ACS work and even with a
consular agent in Bali, the consular officers in Surabaya have responsibilities for the
increasing number of Americans who visit there. Additionally, the increase in NIV
workload in Indonesia can essentially be handled in either Jakarta or Surabaya, given
the frequent short flights between the two cities. Embassy Jakarta also will not have a
new consular section as part of its new embassy compound for years and the current
work area is extremely crowded, whereas the work area and number of interview
windows in the consular section in the new consulate building in Surabaya will be
more than adequate to accommodate an increase in staff.


   RECOMMENDATION 33: Embassy Jakarta, in coordination with the
   Bureau of Consular Affairs, should do an analysis as to whether consular
   workload projections justify the establishment of a second entry-level consular
   officer position at Consulate General Surabaya. (Action: Embassy Jakarta, in
   coordination with CA)



Consular Agency Bali
Mission Indonesia has one consular agency. It is located in Bali, an island off the
eastern tip of Java that is the main destination in Indonesia for American tourists.
Between 50,000 and 60,000 Americans visit Bali every year, and approximately
800 Americans are resident there. The consular agent, an American citizen who
had been a Peace Corps country director in another country, has been on the job
nearly 2 years. He is supervised by the consular section chief in Consulate General
Surabaya. He and his small staff, including a LE staff consular assistant, keep busy.
For example, approximately 65 percent of the passport and citizenship work in
Surabaya’s consular district is accepted at Consular Agency Bali. In 2009, the agency
also handled nine cases involving the shipment of deceased Americans to the United
States and four medical evacuations.

The OIG team inspected Consular Agency Bali and was impressed by the dedication
of the staff. The agency also handles other duties, such as assisting Embassy Jakarta
officers on their official visits to Bali. The level of management and security support


          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   53


                 SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



     Consulate General Surabaya provides to the consular agency is outstanding. In fact,
     the daily interactions between the two posts and the responsiveness in both directions
     could serve as a model for how a consular agency and its supervisory consular post
     should support each other.

     The agency is located in a converted house just off one of the main roads on the
     island and close to one of the major concentrations of tourist hotels. The building
     is adequate, but Consulate General Surabaya is making some improvements. For
     example, the only window for serving the public is built into the only door between
     the work area and the public waiting room. This set-up makes it awkward when
     people need to move back and forth while a customer is being served. The consulate
     general is building a second interview window to rectify this problem. It is also build­
     ing a ramp for handicap access to the waiting room and a better guard booth. The
     current booth is open on all sides and wind often drives the rain into it.
     (b)(2)(b)(5)




     The greatest unmet need for the consular agency is OpenNet access. (b)(2)(b)(5)

                                                                    In addition, the staff
     at the agency would have ready access to training courses, Department worldwide
     cables, CA information updates, and other useful information. Consulate General
     Surabaya wants to help the consular agency obtain OpenNet access, but it needs to
     work with the Department on this issue. To date, CA has not supported the installa­
     tion of OpenNet access in consular agencies.


         RECOMMENDATION 34: The Bureau of Consular Affairs, in coor­
         dination with Embassy Jakarta and the Bureau of Information Resources
         Management, should review its policy on OpenNet access and determine
         whether Consular Agency Bali should have such access. (Action: CA, in coor­
         dination with Embassy Jakarta and IRM)




54              OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




RESOURCE MANAGEMENT


             Agency                       U.S.               U.S.              Foreign               Total              Total
                                         Direct-            Local-             National              Staff            Funding
                                          Hire               Hire               Staff                                in Dollars
                                         Staff 1             Staff                                                    FY 2010
State – D&CP2                                92                 11                   53                156                  9,967,000
State – ICASS                                12                 22                  334                368                 10,573,900
State – Public Diplomacy                     11                   2                  49                 62                  2,990,596
State – Diplomatic Security3                  9                  1                  507                517                  5,067,135
State – Marine Security                       9                                      4                  13                    112,335
State – Representation4                                                                                                        96,000
State – OBO                                   3                 1                    10                 14                 24,400,493

Foreign Commercial Service                    1                 1                    14                 16                    667,421

Defense Attaché Office                       21                                       5                 26                    803,275
Office of Defense
Cooperation                                   5                                      14                 19                 3,323,679
FMF                                                                                                                       20,000,000
IMET                                                                                                                       1,750,000
Dept of Agriculture - FAS                     2                                      6                  8                     370,318
Dept of Agriculture - APHIS                                                          3                     3                  400,150
USAID - OE                                   36                                      61                 97                  5,000,000
USAID - DA                                   21                 1                    48                 70                178,400,000
DOJ - DEA                                     1                                       1                  2                     48,000
DOJ - LEGATT                                  3                                       2                  5                     187,748
DOJ - ICITAP                                  2                                       4                  6                  5,623,600
DOJ - OPDAT                                  2                                       4                   6                  1,616,000
Dept of Homeland Security
- ICE                                         2                                      1                  3                      64,000
Peace Corps                                   3                                       2                  5                   960,000
Library of Congress                           1                                      37                 38                  2,760,553
Dept. of Health and Human
Services - CDC                                2                                       5                 7                     400,150

Force Protection Detachment                   2                 1                                       3                     383,000
PEPFAR                                                                                                                        163,506
Dept of Treasury                              1                                                         1
Totals                                     241                 40                 1,164              1,445          276,128,859
         1
           Includes U.S. PSC staff.

         2
           Includes ASEAN and Export Control and Border Security Program.

         3
           Includes Anti-Terrorism Assistance Program.

         4
           Includes $24,000 in public diplomacy representational funding.





             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011                  55


                    SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     MANAGEMENT OPERATIONS
     The management section in Embassy Jakarta is facing a number of challenges,
     such as providing quality administrative support for a large and increasing embassy
     population, maintaining an array of office and residential facilities in various parts of
     the city, and accommodating a steady stream of high-level visitors. Such challenges
     are greatly complicated by the operational environment in Jakarta, which is plagued
     by incessant heavy traffic, pollution, and a sometimes inflexible host government.

     Despite the intense demands and the operational difficulties, recent customer surveys
     indicate a relatively high degree of satisfaction with ICASS services. In the 2010
     ICASS customer satisfaction survey, the average score for ICASS services was 3.95
     out of 5, only slightly below the EAP and worldwide averages. The average scores for
     the past 2 years, however, show a marked improvement over those from the previous
     4 years. Even more encouraging are the average scores for overall management and
     customer service on the OIG workplace and quality of life questionnaires (WQLQ)
     for this inspection. Average scores in both of these categories were well above the
     average of posts inspected in the last several years.

     The management section is under the direction of a seasoned FE-OC management
     counselor. He is the primary management interlocutor with other agencies through
     the ICASS council and with the executive office, and he is well-regarded by both
     constituencies. He has also demonstrated excellent leadership and communication
     skills in directing his large staff. Knowledgeable and experienced officers fill the key
     unit chief positions and they are backed up by capable mid-level officers and some
     promising entry-level personnel.

     The management section includes 334 LE staff. Some senior employees provide
     knowledge, continuity, and experience. Some LE staff in the management section,
     however, lack experience or training, and their performance therefore does not always
     meet expectations of supervisors or customers. Embassy management recognizes
     the need to upgrade staff capabilities and performance, and a training plan is under
     development.

     Embassy Jakarta also provides management support to the constituent posts. As a
     small post, APP Medan is staffed to provide only the most basic management func­
     tions, such as vehicle operation and limited maintenance. Embassy Jakarta provides
     all other management support services primarily through remote interaction via
     email, telephone, and DVCs. When embassy management visits Medan, it has often
     been to deal with a crisis. Specifically, human resources (HR) officers visited Medan
     on two occasions in 2010 to intercede in disciplinary issues that might have been
     averted through better communication processes. Given the general lack of experi­
     ence of the LE management staff in Medan, it is incumbent on management officers
     in Jakarta to support the APP through a regular schedule of visits.


56             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




   RECOMMENDATION 35: Embassy Jakarta should schedule and fund
   regular visits to American Presence Post Medan by representatives of the vari­
   ous units of the management section to ensure that management issues are
   resolved efficiently. (Action: Embassy Jakarta)


By contrast, Consulate General Surabaya’s management section has a U.S. direct-
hire management officer and a full complement of LE staff. Embassy Jakarta has
also provided excellent support, resulting in a high degree of satisfaction by consul­
ate Americans with ICASS support. WQLQ scores for overall management and
customer service averaged 4.4 out of 5, considerably higher than the average scores for
posts that OIG has inspected in recent years. Similarly, the WQLQ scores for almost
all of the other management units were well above average. The only exceptions were
in human resources and customs and shipping, which are discussed in the relevant
sections of this report.


Rightsizing
In preparation for the new embassy compound project, Embassy Jakarta prepared
a rightsizing review in 2006. Embassy management has since updated the original
review four times and was preparing yet another update at the time of this inspection
to reflect the most current staffing projections.

As part of this ongoing rightsizing exercise, the Department required Embassy
Jakarta to consolidate USAID and ICASS management operations to the maximum
possible extent. This process has proceeded well, with consolidation of such major
operations as leasing, warehousing, and motor pool. Embassy Jakarta recently
reported to the State-USAID Joint Management Council that consolidation is now
complete except for a few minor services, which will be fully consolidated when
much of the mission relocates to leased swing space.

The FY 2012 MSRP includes a management goal of improving and consolidating
mission facilities and services and proposes two additional management positions—
another assistant general services officer (GSO) and a deputy financial management
officer—to increase the mission’s capacity to support the expanding customer base.




          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   57


                 SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     FACILITIES MANAGEMENT

     The facilities management office is under the direction of an experienced facilities
     manager who arrived at post in August 2009. He reports directly to the manage­
     ment counselor and supervises one other U.S. facilities manager and a large staff of
     technicians and laborers. Their task of maintaining office and residential buildings
     is greatly complicated by the climatic conditions, limited availability and quality of
     contract services, transportation problems, and staff who sometimes lack the desired
     skill sets and training. Although not directly responsible for major projects such as
     @america and the new embassy compound, the facilities managers play an important
     advisory role to OBO and contractors and also as liaison between these parties and
     embassy management.

     Despite the conditions under which the facilities management staff operates, custom­
     ers are relatively satisfied with the quality of maintenance and repair for the office
     buildings and residences. Respondents to the WQLQ rated residential and chancery
     maintenance higher than the average score of embassies that OIG had inspected in
     the last several years. The 2010 ICASS customer satisfaction survey scores for both
     residential and nonresidential building maintenance were good and on a par with the
     worldwide and EAP averages.


     Embassy Facilities
     The chancery compound is an 8.4-acre property located in downtown Jakarta near
     many key Indonesian government offices. The facilities were built in 1958 and
     consist of two major buildings and several smaller buildings on this compound.

     OBO plans to construct a new embassy compound on the current site. The project,
     currently valued at over $400 million, is scheduled to begin with relocation of 450
     mission personnel to unclassified offices in leased swing space in early FY 2012.
     Classified offices will remain in the old chancery until the multistory new embassy
     compound is completed.

     A separate government-owned compound, located in a Jakarta suburb, contains a
     large warehouse, offices for general services and facilities maintenance staff, and
     repair shops. Another leased warehouse compound is located on the outskirts of the
     city, where non-expendable items are stored. These warehouse compounds will be
     retained, as the scope of the new embassy compound project does not include any
     warehouse or maintenance facilities.

     Embassy staff and families have access to U.S. government-owned recreational facili­
     ties, including a club that contains a pool, tennis courts, restaurant, and other ameni­
     ties. In addition to this facility, there is a U.S. government-owned property known


58             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



as the Mirasole Guest House, located in the hills outside of Jakarta. This compound
contains two houses that are available for official purposes, as well as for personal use
by mission staff and families.

In the previous inspection of Embassy Jakarta in 2005, the OIG recommended that
the Mirasole Guest House be sold. It noted that the facility was seldom used and
that the high costs of operations and maintenance far exceeded the meager rental
proceeds. The embassy disagreed with the recommendation, noting that access to the
Mirasole Guest House was an important factor in staff morale and the level of usage
had greatly increased after dependents were allowed to return. The OIG subsequently
agreed to close this recommendation, and the embassy retained the guest house.

The OIG team revisited this issue during the current inspection and noted that some
of the circumstances remain unchanged since 2005. The property is still expensive to
maintain; the embassy has spent nearly $130,000 in maintenance and repair funds
on this property within the past two fiscal years, in addition to the costs of utilities
and staff salaries. However, the two guest houses are now rented most weekends
and holidays, although the rental fees are still insufficient to cover the cost of utili­
ties, routine maintenance, and staff salaries. The answer should be to have the rents
reflect the true costs.


    RECOMMENDATION 36: Embassy Jakarta, in coordination with the
    Bureau of Overseas Buildings Operations, should recalculate the rental charges
    for the Mirasole Guest House to ensure that the rates are commensurate with
    the cost of maintaining the quarters. (Action: Embassy Jakarta, in coordina­
    tion with OBO)


Moreover, the rental proceeds have been deposited into the embassy’s maintenance
and repair allotment, which is contrary to Department regulations that prohibit
supplementing of allotments. The OIG team made an informal recommendation to
credit these rental proceeds to OBO allotment 19X0535 REIM AAAQ, as specified
in 15 FAM 249.2.

The mission also maintains leased offices in a commercial building for APP Medan
and has leased and converted a former residence into offices for Consulate General
Surabaya. OBO initiated a new consulate compound construction project in 2006.
The project was originally scheduled for completion in October 2008, but a litany of
problems has resulted in serious delays. The Executive Direction section of this report
contains further discussion of this issue.




          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   59


                 SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



     Safety, Health, and Environmental Management Program

     The safety, health, and environmental management (SHEM) program at Embassy
     Jakarta has been formally established and announced to the community in a
     management notice, and there have been other memoranda relating to SHEM issues.
     Under the direction of the DCM and management counselor, the facilities manage­
     ment section has the responsibility for ensuring the safety, health, and environmental
     quality of multiple office compounds and a huge inventory of residential units. The
     facilities manager is the post occupational safety and health officer, and the embassy
     has a SHEM committee that recently met to develop and review program initiatives.

     Although there are many SHEM initiatives underway, there are areas where improve­
     ments could be made. First aid training needs additional emphasis. The OIG team
     noted that motor pool drivers do not consistently require passengers to fasten seat
     belts before operating the vehicles, despite this requirement being U.S. federal law.
     Some corridors in the chancery building are partially blocked with office equipment,
     furniture, and boxes, which could impede emergency egress routes. The OIG team
     made informal recommendations regarding these issues.




     GENERAL SERVICES OFFICE
     The general services office is under the direction of a solid and experienced FS-02
     serving in an FS-01 supervisory GSO position. He reports directly to the manage­
     ment counselor and supervises three assistant GSOs. At the time of the OIG inspec­
     tion, the section was understaffed in the interregnum between the departure of one
     of the assistant GSOs and the arrival of her successor.

     Despite these challenges, respondents to the WQLQ survey gave high marks for over­
     all general services operations; the average score of 4.11 on a 5-point scale was well
     above the aggregate average for other embassies inspected in the last several years.
     Conversely, several of the individual general services subunits scored well below the
     averages from prior inspections. The 2010 ICASS scores reflected a similar pattern,
     with many of the general services units ranking below the EAP and worldwide
     averages.


     Housing
     Embassy management recognizes the importance of housing and has included in the
     housing handbook a statement of policy that the mission would provide all personnel
     with “adequate, safe and secure housing.” The WQLQ survey results for this inspec­
     tion were encouraging, as respondents rated the suitability of housing at just over 4


60            OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



on a 5-point scale, identical to the average of prior inspections. However, the survey
also indicates that employees of other agencies believe that the housing program is
neither as good nor as equitably administered as do their Department colleagues.

With over 270 staff and families to accommodate, the housing pool is vast and
varied. It is clustered mainly in two distinctly separate areas: downtown near the
chancery and in the suburbs close to schools. Incoming staff members with school-
aged children usually prefer the suburban housing but face lengthy rush-hour
commutes of 1 to 2 hours. According to the housing profile report for Embassy
Jakarta, the U.S. government owns 74 residential units, primarily clustered in three
large apartment complexes, along with a few stand-alone houses for senior officers
such as the Ambassador, DCM, and USAID director. Leased residences constitute
the majority of the housing pool, however, with OBO reporting a total of 133 sepa­
rate units, primarily in apartments or residence hotels.

The constituent posts manage their own housing pools. APP Medan has one U.S.
government-owned residence for the principal officer and one short-term leased unit
for the other American officer. Consulate General Surabaya has ten short-term leases
and is gradually relocating staff from downtown areas near the old consulate to newer
suburban developments closer to the new consulate compound. Based upon their
responses on the WQLQ questionnaire, staff in Surabaya is satisfied with the quality
of housing and the equity in administration of the housing program.

Lease costs have been rising rapidly in recent years, with total outlays for FY 2010
exceeding $3 million, up from the $2.59 million total for FY 2008. With the cost
of every short-term lease in Jakarta exceeding the annual threshold of $25,000, the
embassy was required to obtain an OBO waiver of this threshold before signing any
lease. This requirement to obtain an OBO waiver not only created an unnecessary
administrative burden for both the embassy and OBO, but it also extended the
already lengthy process for adding new residences to the inventory.

These circumstances led OBO to select Jakarta in March 2008 to participate in the
residential rental benchmarking index. Under this program, OBO established a set
of price ceilings or “benchmarks,” intended to reflect actual market prices, for the
various categories of housing. The index benchmarks are to be reviewed every 2
years, which OBO intends to undertake during a real estate assistance visit to Jakarta
that was tentatively planned for January 2011. Embassy management intends to press
for an increase in the benchmark rates, as rising lease costs will soon exceed current
benchmarks. This would make it even more difficult to find quality housing within
a reasonable commuting distance, leading to a severe negative impact on staff morale,
recruiting, and retention. The lack of quality housing within a reasonable commuting
distance from the embassy could also become a major impediment to further expan­
sion of the U.S. government presence in Jakarta. Jakarta is one of the largest cities in
the world without mass transit systems such as subways or light-rails.


          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   61


                 SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




         RECOMMENDATION 37: The Bureau of Overseas Buildings Operations,
         in coordination with Embassy Jakarta, should review the rental benchmark­
         ing index for Jakarta, incorporating not only cost considerations but also
         the potential impact on staff morale, productivity, safety, and security if the
         embassy is forced to replace staff housing in downtown Jakarta with less
         expensive units in the suburbs. (Action: OBO, in coordination with Embassy
         Jakarta)



     Interagency Housing Board
     An OIG team member met with members of the interagency housing board and
     attended one of its meetings to observe its proceedings. The board was appropriately
     composed of members who represented various agencies and interest groups. The
     meeting was properly conducted by the designated chair and attended both by voting
     members and management personnel serving in an ex officio capacity. The informa­
     tion prepared and distributed to the housing board members before the meeting
     did not include any information regarding lease costs for the various units to which
     assignments were to be made. Without such information being readily available at
     meetings, the housing board is not able to properly carry out its responsibilities under
     15 FAM 212.2-2 (C) b. (2) and (5) to monitor lease costs and ensure the cost-
     effectiveness of post housing.


         RECOMMENDATION 38: Embassy Jakarta should provide the interagency
         housing board with sufficient and timely information regarding lease costs.
         (Action: Embassy Jakarta.)



     Motor Pool Operations
     To a much greater extent than most other embassies, the ICASS motor pool is vital
     to the operations of Embassy Jakarta. The motor pool supports a large staff and a
     substantial number of temporary and high-level visitors and provides an important
     link between the downtown chancery and the offices, warehouses, and residences in
     the Jakarta suburbs. In view of the terrorist threat, the heavy and hazardous traffic,
     and the lack of downtown parking, the motor pool shuttle service is a necessary and
     convenient means of commuting for many employees, who pay a standard fee for this
     service.




62             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



Despite the extent and range of demands, the motor pool has capably provided qual­
ity support to Embassy Jakarta. Respondents to the WQLQ survey gave very high
marks for both the responsiveness of the ICASS motor pool and the maintenance and
upkeep of the vehicles, well above the average of embassies previously inspected. The
2010 ICASS customer satisfaction survey reflected similar results and reflected steady
improvement over the past several years.


Customs and Shipping
The customs and shipping unit is staffed by an assistant GSO and seven LE staff in
Embassy Jakarta. This unit handles all of the official and personal shipments transit­
ing the port there. LE staff in Surabaya also coordinates shipments bound for consul­
ate general staff.

Customer evaluations of the customs and shipping unit this past year reflect some
dissatisfaction. The primary cause is the length of time required to process customs
clearances for personal shipments, especially vehicles; the clearances can take up to 6
months. Mission managers acknowledge the hardship caused by such delays, which
are mainly attributable to the sluggish Indonesian bureaucracy. Attempts to prod the
Government of Indonesia into more expeditious clearance have proven unsuccessful.
Embassy and consulate management can only ensure that incoming staff members
are aware of the lengthy clearance process and plan accordingly.


Property Management and Warehousing

A warehouse and workshops will be constructed on the new consulate compound site
in Surabaya, but ongoing problems with the construction project could delay comple­
tion of this facility for up to 3 years. Until then, the consulate will have increasing
difficulty storing property in its current leased warehouse. This narrow three-story
converted shophouse does not meet standards for safety, security or operational
efficiency. The space shortage problem will be exacerbated with the arrival of several
large shipments containing items purchased for use in the new consulate compound.


    RECOMMENDATION 39: Embassy Jakarta, in coordination with the
    Bureau of Overseas Buildings Operations, should lease a warehouse facility in
    Surabaya that would provide adequate storage and meet Department of State
    standards for safety and security until the warehouse on the new consulate
    compound is constructed. (Action: Embassy Jakarta, in coordination with
    OBO)




          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   63


                 SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     Embassy Jakarta has made much progress in consolidating property management
     operations. ICASS and USAID have consolidated non-expendable inventories and
     warehouse operations, and the embassy has also established ICASS appliance and
     furniture pools. Embassy Jakarta had previously experienced problems with financing
     the pools and will participate in an upcoming pilot test for funding furniture and
     appliance pools outside of ICASS; which is expected to offer agencies greater flexibil­
     ity and transparency than the current method.


     Contracting and Procurement
     Embassy Jakarta’s contracting and procurement operations have experienced consid­
     erable turbulence in recent years, culminating in an OIG audit report that cited
     material internal control weaknesses involving procurement and financial manage­
     ment. Embassy customers also found the quality of services lacking, with the average
     score for procurement well below EAP and worldwide averages on the FY 2010
     ICASS customer satisfaction survey. Likewise, procurement rated below the average
     of prior posts in the WQLQ for this inspection.

     Embassy management has taken steps to resolve these problems, including termina­
     tion of senior LE staff, and reassignment of the contracting and procurement portfo­
     lio from an assistant GSO to the supervisory GSO. The remaining weakness is that
     the remaining staff and those newly hired lack experience and training, and therefore
     require more direct oversight. Procurement and contracting are complex subjects
     requiring a thorough understanding of laws and regulations, so it is imperative that
     additional LE staff members complete formal Department procurement training.


        RECOMMENDATION 40: Embassy Jakarta should give priority to training
        all locally employed staff having procurement and contracting responsibili­
        ties, including those who were recently hired, but especially to those who now
        occupy senior locally employed positions in the procurement office. (Action:
        Embassy Jakarta)




     HUMAN RESOURCES
     Consulate General Surabaya is expanding its scope of operations and staff and
     will thus need to enhance the quality of HR support. Respondents to the WQLQ
     survey rated HR among the lowest service categories and well below the average for
     prior posts. The consulate management officer provides on-site supervision of HR


64             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



operations, with guidance and support from Embassy Jakarta. Only one LE staff
member works on Surabaya HR issues part-time, and he has several other time-
consuming responsibilities as protocol assistant and time and attendance clerk. This
employee is capable but inexperienced, and has no formal HR training. Other LE
staff in the consulate general could assume some of his other duties.


    RECOMMENDATION 41: Embassy Jakarta should provide formal human
    resources training for the locally employed staff member in Consulate General
    Surabaya who is assigned those duties, relieve him of some or all of his other
    duties, and revise his position description accordingly. (Action: Embassy
    Jakarta)


The overriding HR issue at Consulate General Surabaya is the fact that all officers
except the consul general have tour lengths of 2 years, rather than the standard 3-year
assignments at Embassy Jakarta. The shorter tours minimize the continuity and
effectiveness of consulate staff, as well as the benefits of training in the one-country
language. Two-year tours also mean more frequent transfers, which increase the
Department’s transportation costs. Surabaya staff can request an extension, but the
timing of the assignment cycle requires that such a decision be made almost immedi­
ately after arrival.

Although the post differentials for Surabaya and Jakarta are 25 percent, the rationale
cited for the shorter tours in Surabaya includes the overall quality of life and the
quality of education for dependents.(b)(2)(b)(5)




    RECOMMENDATION 42: The Bureau of East Asian and Pacific Affairs,
    in coordination with the Bureau of Human Resources and Embassy Jakarta,
    should revise the current policy for length of tours at Consulate General
    Surabaya from 2 to 3 years. (Action: EAP, in coordination with DGHR and
    Embassy Jakarta)


The importance of management attention to personnel issues was evident during the
OIG inspection of APP Medan. After a string of emails and memorandums from
one faction of Medan’s LE staff earlier in 2010, embassy HR employees traveled to
Medan. Their trip culminated with the resignation of the principal officer’s admin­
istrative assistant/secretary. After several months of relative calm, several LE staff set


          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   65


                 SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED


     upon those colleagues whose complaints had led to the resignation. On temporary
     duty in Jakarta at the time, Embassy Port Moresby’s regional HR advisor traveled
     to Medan. (b)(2)(b)(5)




     The Hiring Process at American Presence Post Medan

     The hiring process to fill two vacant positions in Medan does not pass muster. APP
     Medan appears to have created an information technology/audiovisual support
     technician position for the sole purpose of promoting one of Medan’s janitors. Even
     though the vacancy announcement specified that opening and closing dates of
     April 29, 2010 and May 12, 2010, respectively, the janitor’s position description was
     updated to an information technology/audiovisual support technician at a Foreign
     Service national-4 grade and was signed by the janitor prior to the opening date of
     the announcement. As the vacancy announcement specified that only U.S. embassy
     employees would be considered, only two applicants were deemed by HR to be
     eligible and fully qualified. One was the janitor and the second was a Naval Medical
     Research Unit database manager. The HR office memorandum to Medan stated
     that no position could be staffed without interviewing qualified candidates but also
     remarkably added that not all qualified candidates had to be interviewed. The janitor
     was interviewed; the other applicant was not. In reviewing the interagency position
     classification standard for the position and grade, the OIG team noted that a level
     3 (good working knowledge) of English is required, but the vacancy announcement
     only required a level 1 (rudimentary knowledge) of English. Since the janitor only has
     level 1 English, it appears that the vacancy was tailored specifically for him.



        RECOMMENDATION 43: Embassy Jakarta should update the position
        description of the information technology/audiovisual support technician in
        American Presence Post Medan to level 3 English and do another computer
        aided job evaluation on the position. (Action: Embassy Jakarta)




66            OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



The second position in question is that of the economic assistant position. Even
before interviews were scheduled, rumors circulating among APP Medan staff were
that a preferred applicant would get the position. Interviews were first scheduled
when one of two American interviewers would be out of town, but after an objection,
the interviews were rescheduled. The allegedly preferred candidate was not selected as
she was not the best applicant.

The lack of transparency and appearances of favoritism in Medan’s hiring processes
are inappropriate and raise concerns about waste and abuse. The OIG team infor­
mally recommended that interviews for future vacancies in Medan be conducted by
Embassy Jakarta’s HR office, with an APP Medan representative on the interview
panel.


Employee Performance Reviews
Monitoring the employee performance review (EPR) process for more than 1,100
LE staff is a monumental task. The HR office hired two new LE staff in 2010;
their primary responsibilities are to keep on top of the EPR process. In May 2010,
81 EPRs were overdue; by October 2010, all but two had been completed. The two
HR employees should be commended for a job well done. Some LE staff supervi­
sors do not see the need to take the EPR process seriously, especially when LE staff
members reach the top step of their grade; nevertheless, EPRs must be completed
on time. According to the Department’s LE Staff Performance Management Policy
Guidebook, a listing of late EPRs is to be submitted to the appropriate agency head
and/or DCM or Ambassador on a regular basis. Except for an October 7, 2010 list,
this had not been done in Jakarta. The OIG team informally recommended that
the HR office provide listings of late EPRs to the agency head and/or DCM or
Ambassador.

In preparing American employee evaluation reports for the April 16, 2009—April
15, 2010 rating cycle, Jakarta’s front office said that special circumstances affecting
performance should not be entered. The OIG team counseled the embassy that where
special circumstances exist, their inclusion in the employee’s evaluation report should
not be discouraged by the front office.

Locally Employed Staff Committee
The OIG team met with the LE staff committee (executive council) of the
Indonesian Employees’ Association, a group that represents all mission local staff.
Although the Foreign Service national handbook’s chapter on employee associations
states that the association’s council consists of 15 members who are elected for 2-year
terms, there were only seven serving members, five from the Department and two
from USAID. Two of the LE staff members from the local guard force who attended
the meeting were not on the roster of the council members. In addition, only the


          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   67


                 SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     council chairperson is elected and she/he subsequently asks for volunteers and/or
     selects the remaining council members. This process does not appear democratic nor
     representative. The OIG team informally recommended that the elections for the
     executive council follow the Foreign Service national handbook.

     The chairperson of the association’s council, along with three other members, met
     with the Ambassador in August 2010 to introduce the executive council and brief
     him on its activities. During that meeting, the chairperson lauded the excellent
     communication and support that the association receives from the management
     counselor, the HR officer, and the DCM. The Ambassador has also held a town hall
     meeting with the LE staff.

     In their discussion with the OIG team, the council members stated that draft by-laws
     have been forwarded to the wider LE staff community for their comments. Although
     their constituents are somewhat apathetic towards the council, the council members
     continue to promote social and cultural activities as well as advocating for the
     professional interests of the LE staff. The council members also noted that they had
     provided supporting documentation to the HR office in preparation for the new LE
     staff health insurance plan solicitation, which was recently announced in the local
     newspapers.




     FINANCIAL MANAGEMENT
     Embassy Jakarta’s financial management office provides good service to its ICASS
     customers. The office is responsible for FY 2010 Department allotments of approxi­
     mately $29 million.

     Embassy Jakarta’s financial assistants would benefit from on-the-job training espe­
     cially for the financial assistants responsible for the ICASS and program allotments;
     their years of service are 4 and 2 years, respectively. With the two allotments ranging
     between $10 million to $11 million each, even more seasoned employees would find
     it daunting preparing the budgets and monitoring the allotments. The OIG team
     informally recommended that the two employees be sent to neighboring embassies of
     similar size, such as Embassy Bangkok and Embassy Manila, to observe and to learn
     from their more-experienced peers.

     The lack of depth of knowledge is also apparent in several of the top LE staff rungs of
     the financial management unit, in particular, the financial specialist and the supervi­
     sory financial management analyst. Although the financial specialist had prior expe­
     rience as a USAID accountant, he has worked for the Department for only 3 years.
     The supervisory financial management analyst has even less experience, measured in



68             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



months. The LE staff is not receiving mentoring or the necessary help and guidance
from the financial specialist. The financial assistants (budget analysts) are not receiv­
ing the necessary support and guidance from their immediate supervisor.

The supervisory financial management analyst is currently attending the bureau’s
budget workshop along with the financial assistants responsible for preparing the
ICASS and program budgets. This is a good first step that should have been taken
by the financial specialist. The OIG team informally recommended that both the
financial specialist and supervisory financial management analyst receive the neces­
sary classroom and on-the-job training, so that they can provide necessary guidance
for other LE staff in the financial management unit.

Embassy Jakarta has two Class B cashiers; one is scheduled for the Windows-based
automated cashier system training at Financial Services Center Bangkok in FY 2011.
Surabaya also has a Class B cashier. Overall, cashier operations are conducted in
accordance with financial management procedures and requirements. During an
August 2010 visit to audit and review all three cashiers, Financial Services Center
Bangkok’s cashier monitor found minor discrepancies in each of their operations. A
cashier operations action plan was prepared for each of the cashiers with a deadline
for completion by the embassy and consulate. Monthly and quarterly subcashier
reconciliations are performed as required.

The financial management officer walked several of her staff around the embassy
compound and the warehouse. This familiarization tour proved a boon as, during
the ICASS workload count period, her staff had a better understanding of the service
providers’ calculations. This tour also highlighted areas in which her staff lacked
in-depth understanding and led to a visit to Jakarta by the EAP bureau’s financial
specialist rover to provide the necessary training.

At the beginning of FY 2010, there were 3,959 prior year obligations, totaling
approximately $12,054,000. At the end of FY 2010, the obligations had been slashed
to 449, totaling approximately $2,202,000.


International Cooperative Administrative Support Services
The management counselor reports that the section enjoys generally good relations
with the other agencies and the ICASS council. There are few contentious issues. A
member of the resurrected working group echoes this assessment. Although Embassy
Jakarta hasn’t followed the ICASS Service Center’s guidance to hold quarterly council
meetings, the council met three times in both 2009 and 2010. Minutes of the meet­
ings were prepared, cleared, and maintained.

Embassy Jakarta has not restricted the council’s membership to that of the ICASS
Executive Board, i.e., cabinet-level and independent agency representatives. The


          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   69


                 SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     council’s members include both working-level and senior-level agency representa­
     tives. Although 6 FAH-5 H-222.3-1 a. states that a designee of an agencies’ senior
     representative can be a member, the consensus of the ICASS Executive Board is that
     local councils should consist of senior-level agency representatives. These arrange­
     ments have worked well thus far. The personal relationship and inclusiveness that is
     the trademark of the current management counselor may not be the norm after his
     departure. The OIG team made informal recommendations to regularize the ICASS
     council.

     The council is chaired by the consular section chief, who was elected to the position
     in November 2009. The previous chair for 2 years was also the Department represen­
     tative. A further year as chair would mean that the Department would have chaired
     the ICASS council for four successive years. The OIG team made an informal recom­
     mendation that a new council chair be elected from another agency to better reflect
     and encourage full agency participation.

     The council did not fulfill its responsibility to provide input for the management
     counselor’s evaluation. The OIG team made an informal recommendation to correct
     that oversight.

     Although Embassy Jakarta has resurrected its ICASS working group, it has not estab­
     lished an ICASS budget committee per 6 FAH-5 H-222.4. The OIG team informally
     recommended that Embassy Jakarta establish an ICASS budget committee.

     Although a furniture and appliance pool would normally be established under the
     auspices of ICASS, Embassy Jakarta will be funding its pool outside of ICASS using
     program funds. This is a Department pilot for a number of embassies.




     INFORMATION MANAGEMENT
     The information management (IM) program, under the leadership of the informa­
     tion management officer, is a standout success at Embassy Jakarta. The program
     includes an array of cross-cutting initiatives that have put the mission at the forefront
     of the Department’s IM program. The program has been successful despite facing a
     growing customer base compounded by a revolving door of visitors. Fortunately, the
     embassy’s IM program has been staffed with strong leadership, which is confirmed
     by the high ICASS survey results and solid scoring in the OIG questionnaires.

     The program’s initiatives and best practices have not gone unnoticed, receiving
     the attention of several regional missions in addition to the Department. During
     the course of the inspection, the IM staff received a visit from the deputy chief



70             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED



information officer, who characterized Jakarta as an example of the future of the
Department’s overseas IM program.

The information programs center recently experienced a complete transition in
staffing. New managers in the center are confident they can improve a program that
was not highly regarded. The center is fortunate to have experienced personnel; staff
morale is high and a team is beginning to take shape. To their credit, management
expeditiously addressed several areas of concern identified during the course of the
inspection.

The information management program covers an array of information technology
operations that includes the OpenNet and ClassNet networks. The program also
comprises pouch management, mailroom operations, radio\telephone network,
Internet, and television network, in addition to other services. Embassy Jakarta’s
information management program is one of the largest operations in EAP. The
program also provides support to offsite operations at Consulate Surabaya, APP
Medan, and the consular agency in Bali. Intermittent regional support is provided to
Embassy Dili during times of need.


Information Management Best Practices
The information management program has several initiatives that have been
recognized as best practices regionally and globally. The OIG team confirmed best
practices relating to the establishment of the customer service center (CSC) and an
internship program at BINUS, Jakarta’s leading information technology university.
Led by the information systems officer, several of these best practices have already
taken shape at various embassies worldwide, including Bangkok, Amman, Singapore,
Rome, New Delhi, and Manila.


Customer Service Center
The establishment of the CSC, a one-stop-shop service center, has been the corner­
stone of the IM program’s success. The CSC currently handles over 150 ICASS
service requests a day covering facilities and housing, motor pool and other general
services, HR services, telecommunications, and IM services. The idea of the CSC
originated from management’s desire to streamline ICASS services into a customer
service-oriented process. The organization of the CSC has directly addressed the
mission’s MSRP goal of improving and consolidating mission facilities and services.
Under the direction of the information systems center, the CSC program is now the
focal point of all mission assistance.




         OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   71


                SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




                       BEST PRACTICE: Customer Service Center – One-Stop Shop
                       Service

                       Issue: Embassy Jakarta’s management office wanted to provide a one-stop­
                       shopping customer service center to the mission. The customer service center
                       program initiated by the management office did not succeed. The previous
                       information management officer volunteered the information systems center to
                       take over the program.
                       Response: The information systems center staff created four “areas of respon­
                       sibility”: management services, information technology trainer, information
                       technology wireless (Blackberry and cell phones), and general assistance.
                       Result: Under the direction of the information systems center, the CSC
                       has been highly successful and is now the focal point for all assistance to
                       the embassy staff. The CSC’s impact on the MSRP goal of “improving and
                       consolidating mission facilities and services” has been tangible, as reflected in
                       greatly improved customer satisfaction and reduced complaints. This approach
                       is quickly spreading, with other embassies showing interest. The CSC was
                       featured in an article in the September edition of State Magazine. This was a
                       significant change in the way the embassy provides these services and the IM
                       staff worked hard to make it happen. The CSC center was presented as a best
                       practice at the EAP regional management conference.




     BINUS Internship
     The BINUS internship program has been a huge success. The program affords two
     Indonesian students the opportunity to become a part of the embassy’s IM opera­
     tions, bringing fresh and innovative ideas from the local population. Establishment
     of the BINUS internship has also reinforced the mission’s goal of solidifying a posi­
     tive impression of the United States among students. The program has won positive
     reviews by the university student body and has been highlighted in one of the leading
     university magazines in Indonesia.




72            OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




                  BEST PRACTICE: BINUS Information Technology Internship


                  Issue: The ISO wanted to implement an information technology internship
                  that could bring fresh and innovative ideas from local students who are a target
                  for mission outreach.
                  Response: The embassy created a program with BINUS (Indonesia’s top
                  information technology university) consisting of a 6-month internship for two
                  Indonesian university students, one male and one female. The embassy received
                  100 applications from 600 university students who learned of the internships at
                  their annual career opportunities seminar
                  Result: The internship program has been a huge success bringing together the
                  Indonesian student body and the mission’s strategic goal of solidifying a posi­
                  tive impression among Indonesian youth. The program, currently running in
                  its second year, has seen interns support a $112,000 social media Presidential
                  visit campaign funded by the Under Secretary for Public Diplomacy and Public
                  Affairs. Management was interviewed by one of the leading university maga­
                  zines. The magazine article, which reached over 50,000 students, has received
                  positive reviews. Previous mission leadership praised the program’s approach
                  to the MSRP objective of “Fostering Constructive Dialogue with people aged
                  15-30. (Embassy Jakarta) solidified young Indonesians’ impressions of the
                  United States at a very receptive age.” The program was presented as a best
                  practice at regional EAP management and financial management conferences.




Information Programs Center
The various operational functions supervised by the information programs center
staff are not receiving the appropriate amount of direction. The OIG team found
that many of the center’s operational sections receive little guidance and supervi­
sion from their American supervisors. Issues in the functional areas are surfaced
through a senior member of the LE staff. Management described the situation as
dysfunctional due to the LE staff ‘s hesitancy to report issues to American supervi­
sors. Management’s establishment of an LE staff IM weekly meeting has further
reinforced the lack of interaction between the American and LE staff. The OIG team
made an informal recommendation that management establish greater trust through
constant support and guidance from American supervisors.


Information Systems Security Officer Designation
Although information systems security officer duties are being performed, these
security functions are not appropriately separated at Embassy Jakarta. A cable
dated August 2010 designated the information systems officer, who manages the



         OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   73


                SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     unclassified network, as the information systems security officer for the unclassified
     network. The senior information management specialist that manages the classified
     network is designated as the information systems security officer responsibilities for
     the classified network. The individual that manages a system should not also be
     responsible for security oversight of that system. The duties can be realigned to have
     appropriate separation of duties and oversight. The current designation results in
     an internal control weakness. The issue was previously identified in the 2005 OIG
     inspection report. Management acknowledged the issue and has agreed to resolution.


        RECOMMENDATION 44: Embassy Jakarta should realign the duties of the 

        information systems security officer positions to ensure the appropriate separa­
        tion of information systems security officer duties. (Action: Embassy Jakarta)




     Power Supply Infrastructure
     During the inspection, the embassy experienced a fluctuation in power to the
     network infrastructure, which caused some of the workstations in the embassy’s
     network to go offline. The embassy power is currently backed up by an uninter­
     rupted power supply (UPS) infrastructure that does not support all of the offices on
     the compound. The embassy needs to identify the workstations not supported by the
     UPS infrastructure. These workstations should be connected to UPS units to ensure
     continuity of operations.


        RECOMMENDATION 45: Embassy Jakarta should provide uninterrupted
        power supply units to all workstations not supported with continual power.
        (Action: Embassy Jakarta)




     CONSULATE GENERAL SURABAYA

     Information Management
     Consulate Surabaya is strongly managed by a seasoned information programs offi­
     cer (IPO). The recently appointed IPO is the first to staff the position since it was
     created in August 2010. Despite being at the consulate only a short period of time
     prior to the inspection, the OIG team members were very impressed with the IPO’s


74             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



  actions thus far. The IPO manages an IM program that entails all of the functional
  areas in a standard embassy operation. In addition to administration of the OpenNet
  and ClassNet networks, the program covers pouch management, mailroom opera­
  tions, radio/telephone network, in addition to other services. The IPO is also desig­
  nated regional support to the consular agency in Bali.


  Diplomatic Pouch and Mailroom Operation
  Consulate Surabaya manages an active mail and diplomatic pouch operation. The
  operation is dually support by two individuals from the management staff. The staff
  separate functions and coordinate on the processes. The ability to send outgoing mail
  is important to consulate morale. The current procedure for outgoing postage has
  consulate staff sending blank checks to the APO in Jakarta. The staff coordinates
  with the APO regarding the correct postage to send prior to delivery. The IPO has
  acknowledged the controls issue regarding the current procedure and has described
  an initiative that would streamline the process. The IPO is seeking to train consulate
  staff on the U.S. Postal Services’ online Click-N-Ship process that is designed for this
  purpose. The OIG team supports this initiative and made an informal recommenda­
  tion to that effect.



(b)(2)(b)(5)




               OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   75


                      SENSITIVE BUT UNCLASSIFIED
            SENSITIVE BUT UNCLASSIFIED





76   OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


            SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



QUALITY OF LIFE


STAFF MORALE
The official community in Jakarta, Surabaya, and Medan must deal with a range
of hardships, including poor health care, horrible traffic, polluted and overcrowded
cities, and the vagaries of natural forces such as tropical weather and seismic distur­
bances. There are many positive elements, however, that more than offset these hard­
ships, including excellent international schools, an abundance of leisure activities, and
a strong sense of commitment to the diplomatic objectives of the U.S. government in
Indonesia. It is evident from the responses to the questionnaires returned to the OIG
team that overall morale is good and is well above the average of posts that have been
inspected in recent years.




COMMUNITY LIAISON OFFICE
The community liaison office (CLO) is a vital element of the mission, with direct
and profound influence on community morale. Embassy Jakarta is fortunate to have
a highly effective CLO program, and mission staff is most appreciative of this fact.
The CLO program received a score of 4.3 on the FY 2010 ICASS customer satisfac­
tion survey, which was higher than both the EAP and the worldwide averages, the
second highest score of all ICASS services, and the highest score for a CLO program
during the past 6 years. These results parallel those of the WQLQ, where CLO
received an average score of 4.15, superior to the averages for previous embassies that
OIG has inspected.

The CLO staff is comprised of two EFMs who serve part-time; both have completed
CLO training. The CLO staff also includes a full-time LE staff assistant who
provides operational continuity, language skills, and local knowledge. The staff is
energetic and enthusiastic in servicing the mission community, as evidenced by the
variety of community outreach programs and activities. In addition to publishing
the mission’s weekly newsletter, the CLO organizes parties, cultural outings, and
recreational trips. The CLO also coordinates the sponsorship program. Dependent




          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   77


                 SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     education is another important morale factor where the CLO office is heavily
     involved, serving as liaison between incoming parents and the local schools. The
     CLO is also responsible for coordinating reservations for the Mirasole Guest House
     recreational facility.

     The embassy CLO also offers advice and guidance to Consulate General Surabaya,
     which does not have a CLO. Surabaya has been a relatively small post, but is likely
     to experience proportionately large staffing increases with the eventual move to the
     new consulate compound. Consulate management envisions the need for additional
     staff to support this expanding community, including a part-time community liaison
     office coordinator. Some of the traditional CLO activities are currently being carried
     out on an ad hoc basis, but other important functions are not receiving appropriate
     attention. These include pre-arrival information and assistance to incoming staff,
     newcomer orientation, program planning, liaison with dependent schools, and other
     important activities that directly benefit post morale and quality of life. The OIG
     team concurs that a part-time CLO coordinator position would greatly benefit
     Consulate General Surabaya.


        RECOMMENDATION 46: Embassy Jakarta should establish a part-time
        community liaison office coordinator position at Consulate General Surabaya.
        (Action: Embassy Jakarta)




     HEALTH UNIT
     The health unit at Embassy Jakarta is a busy, customer-oriented office, where a team
     approach prevails in the medical care of patients. It provides primary medical care to
     embassy staff and dependents as well as emergency care to local staff members who
     suffer illness or injury while on the job.

     The presence of a robust health unit is especially important for Embassy Jakarta due
     to the poor quality of local medical care and an alarming increase in gastrointestinal
     ailments. Despite the facade of modern medical facilities, there are relatively few
     Western-trained medical personnel in Indonesia who can adequately treat secondary
     medical conditions. Singapore is the medical evacuation point for patients requir­
     ing such care and for those with complex medical problems requiring advanced or
     extended treatment. Medical evacuations from Jakarta and other posts supported by
     the regional medical officer totaled 48 and 53 in FY 2009 and FY 2010, respectively.




78             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



The health unit space includes a reception and waiting area, medical records stor­
age, offices, and separate private treatment rooms, and equipment for traumas such
as cardiac events. It also has a pharmacy and a medical supply storage room. The
medical laboratory, which inherited a trove of equipment when the Naval Medical
Research Unit ceased operations, is now regarded as one of the best in Jakarta. The
unit is conveniently located on the chancery compound, but the current space is
not large enough to comfortably accommodate all operations. Moving to the leased
swing space and eventually the new embassy compound will afford the health unit
the space it needs for a mission of this size.

The health unit is well-staffed with medical personnel, including a regional medical
officer, a Foreign Service health practitioner, a regional medical technologist, and
three EFM registered nurses. Currently, the regional medical officer/psychiatrist in
Embassy Bangkok supports the staff in Indonesia for mental health services. The
Office of Medical Services is considering the establishment of another regional medi­
cal officer/psychiatrist in the region, and Embassy Jakarta plans to make a business
case to the Department for establishing the position in Jakarta.

Despite the best efforts of health unit personnel, the embassy community was not
universally satisfied with the quality of health unit services. The average score on
the WQLQ questionnaires was just above 3.7 on a 5-point scale—not terrible, but
much lower than the average score of prior posts that OIG inspected. The 2010
ICASS customer satisfaction survey indicates a similar degree of dissatisfaction with
the health unit, with scores again averaging well below the bureau and worldwide
averages.

The regional medical officer and Foreign Service health practitioner acknowledged
that, although the former regional medical officer had strong interpersonal skills
and was a hard act to follow, the health unit was split to the point where two of the
EFM registered nurses were threatening to quit. Even though that crisis was averted
through the intervention of Bangkok’s regional medical manager, rebuilding the
mission community’s confidence in the health unit is still an ongoing process.

One of the divisive issues is that of after-hours duty. Although the Office of Medical
Services does not have a formal policy on emergency response protocols, the usual
practice is for the Foreign Service medical personnel to take duty calls in rotation
with the other health unit staff. This is not the practice in the health unit at Embassy
Jakarta. Accordingly, the OIG team informally recommended that the regional medi­
cal officer and Foreign Service health practitioner take duty calls in rotation with the
others.




          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   79


                 SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



     RECREATION ASSOCIATION

     The American Embassy Commissary Recreation Association provides its members
     with a range of services, including the commissary, dry cleaning, pack and wrap,
     and the club, which includes a restaurant and bar, and recreation facilities. It meets
     its financial reporting obligations to the Department but was late in submitting
     its semiannual financial statements for the period January 1—June, 30, 2010. The
     association has maintained its profitability, increasing its net profit to $204,827
     (16.5 percent) on gross sales/services of $1,244,949 in 2009. In 2008, its net profit
     was $22,366 (2.1 percent) on gross sales/services of $1,082,071. Although its latest
     financial audit by an independent firm indicated no material weaknesses, the 816
     percent increase in net profit between 2008 and 2009 on gross sales/services that only
     increased by 15 percent between the 2 years leads the OIG inspectors to suspect the
     reliability of the financial statements.

     Embassy Jakarta’s financial management officer, a recent draftee to the association
     board as treasurer, reported to the OIG inspector that she has made an initial effort
     to put in order the financial house of the association. Accounting for the cash hold­
     ings of the association is her first order of business. The non-compatible accounting
     software packages used by the commissary and club are to be replaced by a single
     software package which will include point-of-sale transactions processing at the club
     (hospitality), not only at the commissary (retail).

     In addition to full membership available to U.S. direct-hire employees, the associa­
     tion offers associate, diplomatic, affiliate, special, corporate, temporary and guest
     memberships. U.S. citizens must comprise 50 percent of the membership. On
     September 30, 2010, of the 345 members, 50 percent were U.S. citizens, 41 percent
     were third country nationals, and 9 percent were Indonesian citizens. The association
     employs 77 Indonesian citizens, including six day-workers.

     The association’s credit policy at the club was not being enforced. During the first
     week of each month, a statement is sent to each member for the previous month’s
     dues and account charges and payment is due by the end of the month. Late
     payments incur a 2 percent late fee the first month and 5 percent thereafter. In its
     review of the accounts receivable, the OIG team found that not all members paid
     their outstanding balance by the due date. Accounts receivable, which includes
     current and overdue accounts, totaled $91,065.75 on December 31, 2009, but by
     October 25, 2010, had been reduced to $87,545.44. The slight decrease was offset
     by the more troubling 97.6 percent increase in overdue amounts, i.e., $21, 362.90
     to $42,221.45. Approximately $28,300 of the overdue amount is over 90 days old
     and is owed by 55 individuals and/or groups, which include 16 association members
     owing between $600 and $2,200. One member who owed more than $2,100




80            OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED


appears to have left Jakarta without paying. Included in the above totals are associa­
tion members who have not paid a membership deposit. The OIG team informally
recommended that all members of the recreation association be required to pay a
membership deposit.


    RECOMMENDATION 47: Embassy Jakarta should require that, effec­
    tive immediately, the recreation association accept only cash or credit card
    payments for sales to individual members. (Action: Embassy Jakarta)




    RECOMMENDATION 48: Embassy Jakarta should require that the recre­
    ation association immediately recover all outstanding credit balances from its
    individual members. (Action: Embassy Jakarta)


In early 2009, the general manager granted herself an employee loan of approxi­
mately $7,000 without the board’s prior knowledge as this had been done by the club
for years and is common practice in Indonesia. Upon finding out, the board set a
repayment schedule and the general manager was counseled on fiscal responsibility.
A board member stated that they had implemented a policy on employee loans, but it
appears that it was verbal vice written. The OIG team informally recommended that
a written policy for employee loans be developed and approved by a majority vote of
the board.

In 2009, both the commissary and club provided funding totaling approximately
$2,900 for use by the embassy’s CLO.




EQUAL EMPLOYMENT OPPORTUNITY
As noted in the Executive Direction section of this report, the embassy takes seriously
its EEO responsibilities, but it does not have a sufficient number of EEO counselors
or of LE EEO liaisons for a mission of its size. The Office of Civil Rights supports
the plan to add at least two additional EEO counselors to the two EEO counselors
currently at Embassy Jakarta. During the inspection, there was a period in which
there was only one EEO counselor available. In the past year, when there were three
EEO counselors, one counselor had to provide counseling on a daily basis for an
extended period in connection with one case.



          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   81


                 SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     Neither Consulate General Surabaya nor APP Medan has an LE EEO liaison,
     notwithstanding issues that have occurred at APP Medan. The OIG team informally
     recommended that Embassy Jakarta take a guiding hand in selecting an LE EEO
     liaison in Surabaya and Medan.

     Although both Consulate General Surabaya and APP Medan can continue to use
     the EEO counselors and the Federal Women’s Program coordinator at Embassy
     Jakarta, Surabaya has indicated that it would like to have its own EEO counselor. In
     addition, those who are already EEO counselors and LE EEO liaisons would benefit
     from refresher training. The Office of Civil rights has no plans to provide training
     at Embassy Jakarta or anywhere else in EAP in FY 2011. Although Embassy Jakarta
     has budgeted to send two officers to the Department for EEO counselor training,
     it would be more cost efficient to have a trainer come to Jakarta to train and refresh
     many employees, whether paid for by the Office of Civil Rights, Embassy Jakarta, or
     EAP.

     Given the significant EEO issue in the past year and allegations tinged with EEO
     elements at APP Medan, as well as the need to train multiple EEO counselors and
     LE staff liaisons, there is a significant current need for this mission to have onsite or
     nearby, EAP- or post-funded training.


         RECOMMENDATION 49: The Bureau of East Asian and Pacific Affairs, in
         coordination with the Office of Civil Rights and Embassy Jakarta, should at
         the earliest opportunity arrange for Equal Employment Opportunity train­
         ing in Jakarta or at a nearby U.S. embassy for mission counselors and locally
         employed liaisons. (Action: EAP, in coordination with S/OCR and Embassy
         Jakarta)


     Notice boards at Embassy Jakarta, Consulate General Surabaya, and APP Medan
     were deficient per 3 FAM 1514.2 a. and b. in that the names of EEO counselors
     and the Federal Women’s Program coordinator were not posted. Neither was there
     contact information for LE EEO liaisons. In addition, Surabaya and Medan did not
     post the Secretary’s current EEO statement or sexual harassment statement. The OIG
     team addressed these issues in an informal recommendation.




82             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED


OVERSEAS SCHOOLS
The quality of education for dependent children is the most important morale factor
for a large segment of mission staff in Indonesia, and thus a key element in attracting
and retaining quality officers. The WQLQ surveys conducted for this inspection
indicate a high degree of satisfaction from respondents in both Embassy Jakarta
and Consulate General Surabaya. (b) (6)



The continued excellence of these educational institutions could be jeopardized by
recent Indonesian Government legislation placing new requirements on all schools
in Indonesia. Effective in 2013, the new legislation calls for mandatory courses in
religion, as well as quotas on the percentage of Indonesian instructors and adminis-
trators. The directors and board members of both schools have joined other groups
in lobbying legislators and education ministry officials, and are optimistic that an
exemption to this legislation will be granted to private international schools.




          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   83


                 SENSITIVE BUT UNCLASSIFIED
            SENSITIVE BUT UNCLASSIFIED





84   OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


            SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




MANAGEMENT CONTROLS


The OIG’s overall assessment of management controls at Embassy Jakarta is favor­
able, although there are some issues noted elsewhere in this report that require reme­
dial action. Specifically, the OIG team noted internal control deficiencies involving
grants management, the recreation association, and consular operations.

An embassy the size and complexity of Jakarta requires constant vigilance to prevent
waste, fraud and mismanagement. As the management controls coordinator for
Embassy Jakarta, the management counselor has institutionalized internal controls
throughout his operation. He receives excellent support from the executive office,
with the new Ambassador asserting his strong interest in management controls
immediately upon arrival.

Embassy Jakarta undertook a review of management controls in preparation for its
annual Chief of Mission Management Control Statement of Assurance, which was
submitted on July 23, 2010. In this statement, the Ambassador reported no material
weaknesses. The embassy has submitted the required annual inventory reports to the
appropriate Department offices, addressing expendable and non-expendable property,
housing, motor pool, communications equipment, and controlled medical substances.

The OIG performed an audit at Embassy Jakarta in late FY 2008, during which
material weaknesses were detected in procurement and financial management opera­
tions. Embassy management implemented the recommended changes to strengthen
internal controls, and OIG has now closed all recommendations from that report.




          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   85


                 SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



     GRANTS MANAGEMENT
     Just a few months prior to the inspection, Embassy Jakarta had a changeover in
     personnel resulting in the arrival of new warranted grants officers. There are four
     warranted grants officers in PAS, with the cultural affairs officer being the primary
     grants officer; on the Department side, he handles both public diplomacy and non-
     public diplomacy grants for all sections. In reviewing grant folders between FY 2008
     and FY 2010, the OIG team identified some shortcomings. For example, some grants
     officer representatives (GOR) had not had grants training. Other shortcomings
     found in the grant folders were:

        • 	 Grant folders not filled in other than the name of the award recipient and the
            award number or assistance number.

        • 	 No indication of the MSRP goal supported by the award. This was not
            explicitly indicated either on the grant folder or on the documents inside the
            folder.

        • 	 No GOR designation letters, although the files do indicate the grants officer
            and GOR for each award.

        • 	 No letter to the grantee notifying the award recipient of the identity of a
            new grants officer or of a new GOR during the open period of an assistance
            award.

        • 	 One large award without a GOR as required by Grants Policy Directive 16,
            although in that case it was mitigated by the fact that three embassy officers
            have regular interaction with the grantee.

        • 	 A general lack of closeout letters in the grants folders, but voluminous
            documentation of receipts and expenditures are available outside the folders.
            No ticklers exist in those folders to alert a reviewer of the existence of those
            documents or where they can be found.

        • 	 There is no indication that GORs are monitoring their assigned grants. No
            trip reports, memoranda of conversation, or any other documentation exist to
            indicate that monitoring and evaluation of the award recipient’s performance
            has occurred, per the requirements of Grants Policy Directive 42 and Grants
            Policy Directive 28. Likewise, there is no indication that anyone other than
            the LE grants assistant has reviewed the voluminous closeout documentation
            mentioned in item six above.




86            OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED


The Office of the Procurement Executive will send a representative to Jakarta in
January 2011 to conduct a 5-day training course in grants management. This train-
ing will go a long way to assist the embassy in improving its grants management
regime.


    RECOMMENDATION 50: Embassy Jakarta should review its grants
    management regime, establish and implement standard operating procedures
    to eliminate weaknesses, hold an annual meeting of grants officers and grants
    officer representatives to review responsibilities, determine where training is
    required, and replace grants officers and designated grants officer representa-
    tives, when necessary, during the open period of an assistance award. (Action:
    Embassy Jakarta)


(b)(2)(b)(5)




           OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   87


                  SENSITIVE BUT UNCLASSIFIED
            SENSITIVE BUT UNCLASSIFIED





88   OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


            SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




FORMAL RECOMMENDATIONS


RECOMMENDATION 1: Embassy Jakarta should, as part of the preparation of
the FY 2013 Mission Strategic and Resource Plan, review every mission position and
program to determine its necessity in achieving the mission’s highest goals and objec­
tives and make changes as indicated by that review. (Action: Embassy Jakarta)


RECOMMENDATION 2: Embassy Jakarta should determine what kind of diplo­
matic establishment it wants American Presence Post Medan to be, and, if that deter­
mination is that it should be a consulate, Embassy Jakarta should make that case to
the Department. (Action: Embassy Jakarta)


RECOMMENDATION 3: Embassy Jakarta, in coordination with the U.S. Mission
to the Association of Southeast Asian Nations, should develop a memorandum of
understanding to define obligations and expectations of the two missions, with
provisions for the memorandum to be renewed with each change of Ambassador in
either mission. (Action: Embassy Jakarta, in coordination with the U.S. Mission to
ASEAN)


RECOMMENDATION 4: The Bureau of Overseas Buildings Operations should
provide the Ambassador at Embassy Jakarta with at least bimonthly updates on the
progress of the new consulate compound in Surabaya, including an estimate of the
occupation date. (Action: OBO)


RECOMMENDATION 5: Embassy Jakarta, in coordination with the Bureau of
East Asian and Pacific Affairs and the Bureau of Human Resources, should reevalu­
ate the request for a staff aide position and, if it determines that one is needed, it
should either reiterate its request to the Department for a new position or ask the
Department to reprogram two existing positions to create a junior officer rotational
position. (Action: Embassy Jakarta, in coordination with EAP and DGHR)


RECOMMENDATION 6: Embassy Jakarta should assign mentors from the politi­
cal and economic sections to the officers in the political/economic positions in
Consulate General Surabaya and American Presence Post Medan and create and
implement a plan for regular reciprocal visits and consultations between those officers
and their mentors. (Action: Embassy Jakarta)



          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   89


                 SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     RECOMMENDATION 7: Embassy Jakarta, in coordination with the Bureau of
     East Asian and Pacific Affairs and the Bureau of Human Resources, should repro­
     gram a political officer position from Jakarta to Consulate General Surabaya and
     grade that position at the FS-03 level as the chief of the political/economic section.
     (Action: Embassy Jakarta, in coordination with EAP and DGHR)


     RECOMMENDATION 8: Embassy Jakarta should require biographic information
     in reporting on meetings and should include biographic reporting responsibilities
     in the work requirements statements of all officers who have significant amounts of
     contact work. (Action: Embassy Jakarta)


     RECOMMENDATION 9: Embassy Jakarta should conduct periodically digital
     video conferences of political section staff meetings with Consulate General Surabaya
     and American Presence Post Medan. (Action: Embassy Jakarta)


     RECOMMENDATION 10: Embassy Jakarta should establish an assistance working
     group to evaluate which activities to undertake as contributing to core mission objec­
     tives and to determine whether staffing is adequate to conduct effective oversight.
     (Action: Embassy Jakarta)


     RECOMMENDATION 11: Embassy Jakarta, in coordination with the Office of
     the Under Secretary for Public Diplomacy and Public Affairs, should develop and
     implement, with the @america contractors, a plan for performance measurement of
     @america. (Action: Embassy Jakarta, in coordination with R)


     RECOMMENDATION 12: Embassy Jakarta, in coordination with the Bureau
     of International Information Programs, should develop a standalone Web site for
     American Presence Post Medan. (Action: Embassy Jakarta, in coordination with IIP)


     RECOMMENDATION 13: Embassy Jakarta should assess position number
     60036007 (Surabaya public affairs officer) to determine whether to request a change
     in the classification level of the position to FS-03. (Action: Embassy Jakarta)


     RECOMMENDATION 14: Embassy Jakarta should prepare and implement a
     travel plan for the consul general that would involve at least two trips per year to
     consult with consular officers and locally employed staff in Surabaya, one trip per
     year to consult with the consular agent and locally employed staff member in Bali,
     and one year trip per year to consult with officers and locally employed staff in
     Medan. (Action: Embassy Jakarta)


90             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



RECOMMENDATION 15: Embassy Jakarta, in coordination with the Bureau of
Consular Affairs, should amend the country specific information sheet on Indonesia
to reflect accurate information on what American citizens need to enter the country
through Bali. (Action: Embassy Jakarta, in coordination with CA)


RECOMMENDATION 16: Embassy Jakarta should establish and implement a
program of regular consultations at the embassy for consular officers in Surabaya and
the consular agent in Bali and a program of exchanges between consular officers in
Jakarta and Surabaya. (Action: Embassy Jakarta)


RECOMMENDATION 17: Embassy Jakarta should create and implement a stan­
dard operating procedure that details how American Presence Post Medan should
report emergency services to American citizens in Sumatra to the consular section in
Jakarta and defines the responsibilities of each post in specific types of cases. (Action:
Embassy Jakarta)


RECOMMENDATION 18: The Bureau of Consular Affairs, in coordination with
the Bureau of Human Resources and Embassy Jakarta, should approve Embassy
Jakarta’s request to establish an additional consular manager position, but it should
do so by creating a new position rather than reprogramming an entry-level position.
(Action: CA, in coordination with DGHR and Embassy Jakarta)


RECOMMENDATION 19: Embassy Jakarta should create and implement a stan­
dard operating procedure that would require all coordination with the local guards
on emergency visa appointments be handled by the nonimmigrant visa unit. (Action:
Embassy Jakarta)


RECOMMENDATION 20: Embassy Jakarta should space out the nonimmi­
grant visa appointment times up to 10:30 in the morning and enforce arrival times.
(Action: Embassy Jakarta)


RECOMMENDATION 21: Embassy Jakarta should establish separate categories of
appointments for students, businessmen, crewmen, and other special visa categories
to provide flexibility for applicants and to maintain control of the nonimmigrant visa
workload. (Action: Embassy Jakarta)


RECOMMENDATION 22: Embassy Jakarta should create appointment slots on
Mondays for general visa applicants and monitor the appointment system regularly
to ensure a balance between those appointments and those for students and business­
men. (Action: Embassy Jakarta)

          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   91


                 SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED


     RECOMMENDATION 23: Embassy Jakarta, in coordination with the Bureau of
     Consular Affairs, should install and use an electronic queuing system for the waiting
     areas in the consular section. (Action: Embassy Jakarta, in coordination with CA)


     RECOMMENDATION 24: Embassy Jakarta should report the wait times for
     nonimmigrant visa appointments based on Department guidelines and not record
     unrealistically short wait periods when fewer than 25 appointments per day are added
     to supplement the schedule. (Action: Embassy Jakarta)


     RECOMMENDATION 25: (b)(2)(b)(5)




     RECOMMENDATION 26: Embassy Jakarta should immediately cease using any
     other categories besides Class A and Class B referrals to allow mission employees to
     provide information on nonimmigrant visa applicants. (Action: Embassy Jakarta)


     RECOMMENDATION 27: Embassy Jakarta should require that the consul
     general, or in his/her absence the deputy consular section chief, brief officers on the
     visa referral process before they receive authority to submit visa referrals. (Action:
     Embassy Jakarta)


     RECOMMENDATION 28: Embassy Jakarta should cease allowing referral visa
     applicants to pay their visa application fees to the consular cashier and should require
     them to pay their fees offsite at a bank in the same way that other visa applicants do.
     (Action: Embassy Jakarta)


     RECOMMENDATION 29: Embassy Jakarta should create and implement a plan
     to enforce the requirement that all requests for expedited appointments by mission
     employees be through the visa referral process. (Action: Embassy Jakarta)


     RECOMMENDATION 30: Embassy Jakarta should enforce its own standard oper-
     ating procedures regarding who is eligible to use the expedited appointment proce-
     dures under the business visa program. (Action: Embassy Jakarta)


     RECOMMENDATION 31: Embassy Jakarta should create and implement a plan to
     enforce the requirement that the documents for all visa referral cases are scanned into
     the computer system and are properly labeled. (Action: Embassy Jakarta)



92             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



RECOMMENDATION 32: Embassy Jakarta should install a cipher lock on the
consular cashier’s booth and ensure that only the consular cashier and designated
backup cashiers have access to the booth. (Action: Embassy Jakarta)


RECOMMENDATION 33: Embassy Jakarta, in coordination with the Bureau of
Consular Affairs, should do an analysis as to whether consular workload projections
justify the establishment of a second entry-level consular officer position at Consulate
General Surabaya. (Action: Embassy Jakarta, in coordination with CA)


RECOMMENDATION 34: The Bureau of Consular Affairs, in coordination with
Embassy Jakarta and the Bureau of Information Resources Management, should
review its policy on OpenNet access and determine whether Consular Agency Bali
should have such access. (Action: CA, in coordination with Embassy Jakarta and
IRM)


RECOMMENDATION 35: Embassy Jakarta should schedule and fund regular
visits to American Presence Post Medan by representatives of the various units of
the management section to ensure that management issues are resolved efficiently.
(Action: Embassy Jakarta)


RECOMMENDATION 36: Embassy Jakarta, in coordination with the Bureau of
Overseas Buildings Operations, should recalculate the rental charges for the Mirasole
Guest House to ensure that the rates are commensurate with the cost of maintaining
the quarters. (Action: Embassy Jakarta, in coordination with OBO)


RECOMMENDATION 37: The Bureau of Overseas Buildings Operations, in
coordination with Embassy Jakarta, should review the rental benchmarking index
for Jakarta, incorporating not only cost considerations but also the potential impact
on staff morale, productivity, safety, and security if the embassy is forced to replace
staff housing in downtown Jakarta with less expensive units in the suburbs. (Action:
OBO, in coordination with Embassy Jakarta)


RECOMMENDATION 38: Embassy Jakarta should provide the interagency
housing board with sufficient and timely information regarding lease costs. (Action:
Embassy Jakarta.)




          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   93


                 SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     RECOMMENDATION 39: Embassy Jakarta, in coordination with the Bureau of
     Overseas Buildings Operations, should lease a warehouse facility in Surabaya that
     would provide adequate storage and meet Department of State standards for safety
     and security until the warehouse on the new consulate compound is constructed.
     (Action: Embassy Jakarta, in coordination with OBO)


     RECOMMENDATION 40: Embassy Jakarta should give priority to training all
     locally employed staff having procurement and contracting responsibilities, including
     those who were recently hired, but especially to those who now occupy senior locally
     employed positions in the procurement office. (Action: Embassy Jakarta)


     RECOMMENDATION 41: Embassy Jakarta should provide formal human
     resources training for the locally employed staff member in Consulate General
     Surabaya who is assigned those duties, relieve him of some or all of his other duties,
     and revise his position description accordingly. (Action: Embassy Jakarta)


     RECOMMENDATION 42: The Bureau of East Asian and Pacific Affairs, in coor­
     dination with the Bureau of Human Resources and Embassy Jakarta, should revise
     the current policy for length of tours at Consulate General Surabaya from 2 to 3
     years. (Action: EAP, in coordination with DGHR and Embassy Jakarta)


     RECOMMENDATION 43: Embassy Jakarta should update the position descrip­
     tion of the information technology/audiovisual support technician in American
     Presence Post Medan to level 3 English and do another computer aided job evalua­
     tion on the position. (Action: Embassy Jakarta)


     RECOMMENDATION 44: Embassy Jakarta should realign the duties of the
     information systems security officer positions to ensure the appropriate separation of
     information systems security officer duties. (Action: Embassy Jakarta)


     RECOMMENDATION 45: Embassy Jakarta should provide uninterrupted power
     supply units to all workstations not supported with continual power. (Action:
     Embassy Jakarta)


     RECOMMENDATION 46: Embassy Jakarta should establish a part-time commu­
     nity liaison office coordinator position at Consulate General Surabaya. (Action:
     Embassy Jakarta)




94             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



RECOMMENDATION 47: Embassy Jakarta should require that, effective imme­
diately, the recreation association accept only cash or credit card payments for sales to
individual members. (Action: Embassy Jakarta)


RECOMMENDATION 48: Embassy Jakarta should require that the recreation
association immediately recover all outstanding credit balances from its individual
members. (Action: Embassy Jakarta)


RECOMMENDATION 49: The Bureau of East Asian and Pacific Affairs, in coor­
dination with the Office of Civil Rights and Embassy Jakarta, should at the earliest
opportunity arrange for Equal Employment Opportunity training in Jakarta or at a
nearby U.S. embassy for mission counselors and locally employed liaisons. (Action:
EAP, in coordination with S/OCR and Embassy Jakarta)


RECOMMENDATION 50: Embassy Jakarta should review its grants management
regime, establish and implement standard operating procedures to eliminate weak­
nesses, hold an annual meeting of grants officers and grants officer representatives to
review responsibilities, determine where training is required, and replace grants offi­
cers and designated grants officer representatives, when necessary, during the open
period of an assistance award. (Action: Embassy Jakarta)




          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   95


                 SENSITIVE BUT UNCLASSIFIED
            SENSITIVE BUT UNCLASSIFIED





96   OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


            SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




INFORMAL RECOMMENDATIONS


Informal recommendations cover operational matters not requiring action by organi­
zations outside the inspected unit and/or the parent regional bureau. Informal recom­
mendations will not be subject to the OIG compliance process. However, any subse­
quent OIG inspection or on-site compliance review will assess the mission’s progress
in implementing the informal recommendations.


Political and Economic Sections
Embassy officers sometimes transmit cables without input from Consulate General
Surabaya staff, whose perspectives could improve the analysis or correct the facts.
There have been cases where embassy staff started writing reports which consulate
general staff members were concurrently working on.

Informal Recommendation 1: Embassy Jakarta should require that embassy officers
seek input more often from Consulate General Surabaya staff when drafting reports
about national trends in order to enhance cable analysis and accuracy, avoid duplica­
tion of efforts, and foster mission-wide collaboration.

LE staff members in the constituent posts have had difficulty keeping current on,
and understanding the objectives of, many mission activities in political, economic,
environmental, science, technology, and health topics.

Informal Recommendation 2: Embassy Jakarta should develop ways to improve
collaboration between locally employed staff in the embassy and the constituent posts
on cross-cutting political, economic, environmental, science, technology, and health
topics.

Political and economic section employees have not been keeping files according to the
Department’s Traffic Analysis by Geography and Subject (TAGS) system. They have
been keeping documents in personal email folders or electronic document folders
inaccessible by their colleagues.

Informal Recommendation 3: Embassy Jakarta should establish shared electronic
filing systems according to the Department’s Traffic Analysis by Geography and
Subject (TAGS) system.

The political and economic section staff members have not retired files to the
Department archives in years, creating inefficiency in searching for information and
a loss of material for the Department and historians.


         OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   97


                SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     Informal Recommendation 4: Embassy Jakarta should issue an administrative
     notice with instructions on records management and archiving responsibilities and
     require compliance with these requirements.

     During the inspection, the embassy introduced the State Messaging and Archive
     Retrieval Toolset software in which “record email” should be used for several catego­
     ries of emails that need to be retained.

     Informal Recommendation 5: Embassy Jakarta should issue an administrative
     notice with guidance on the types of email correspondence that should be main­
     tained for files and archiving purposes by using the State Messaging and Archive
     Retrieval Toolset (SMART) “record email” function.

     The protocol office maintains a centralized contact database but many parts of the
     mission are not making use of it, creating inefficiencies and unnecessary duplication
     of work.

     Informal Recommendation 6: Embassy Jakarta should direct all mission elements
     to make use of the centralized contact database on a year-round basis.

     Embassy Jakarta maintains some biographic information on its unclassified intranet
     homepage at a SharePoint site, but the site’s location is not widely known to
     Department consumers.

     Informal Recommendation 7: Embassy Jakarta should undertake a concerted effort
     to make Department consumers aware that there is biographic data on the unclassi­
     fied intranet homepage, and explain how to access the SharePoint site.

     Work assignments are not allocated equitably in the political section. Morale and
     productivity are adversely affected when the same people are repeatedly overbur­
     dened. Portfolio assignments can be redefined to achieve better equity. There should
     be flexibility in temporarily adjusting portfolios as local events warrant.

     Informal Recommendation 8: Embassy Jakarta should monitor carefully the allo­
     cation of workload in the political section to maintain equity in assignments and
     should adjust assignments as local events warrant.




98             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



Productivity and efficiency can be improved in the political section using posi­
tive reinforcement, periodic rewards to high performers, and hands-on guidance to
improve employee skills.

Informal Recommendation 9: Embassy Jakarta’s political section management
should monitor employees’ performance closely to ensure good performers are recog­
nized and that underperforming employees have guidance and training and are held
accountable for assigned tasks.

Staff meetings held on a weekly basis are not sufficient to communicate shorter-term
changing deadlines and priorities. Convening daily huddles in the political section
can improve efficiency in the completion of tasks.

Informal Recommendation 10: Embassy Jakarta’s political section management
should conduct daily huddles, after the senior staff meeting, to clarify changes
in priorities and to communicate information that can enhance efficiency in the
completion of tasks.

Fast-breaking and high-profile events demand a quickened pace of reporting to help
the Department field questions from the media and Congress. Employee morale
suffers when drafts of material that is not time-sensitive are not processed in a timely
fashion.

Informal Recommendation 11: Embassy Jakarta should require that the political
section management avoid a desire to edit for perfect quality, and approve in a few
days’ timeframe, cables for transmittal.

The economic section persistently suffers from inadequate office management
support because the mission’s office management specialist rover is assigned regularly
to other sections.

Informal Recommendation 12: Embassy Jakarta should require that the economic
and management sections be more aggressive in recruiting eligible family members as
temporary office management specialists.

Several working groups are not recording agendas and summary notes of their meet­
ings, obviating much of the utility of the meetings by preventing other elements of
the mission from knowing what the working groups are discussing.




          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   99


                 SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



      Informal Recommendation 13: Embassy Jakarta should record and file the agendas
      and summary notes of the economic cluster group meetings.

      The ESTH unit is not keeping abreast of the wide range of activities that are carried
      out by many U.S. technical agencies in Indonesia. Files are lacking on these activities
      for reference use to prepare briefing papers, in the event conditions go awry or if a
      situation necessitates embassy action.

      Informal Recommendation 14: Embassy Jakarta’s should require that the environ­
      ment, science and technology, and health unit obtain and file written trip reports and
      periodic updates from the experts of U.S. technical agencies and request copies of
      technical agencies’ annual assessments of activities for official files.

      Employees in Surabaya with ESTH responsibilities need further understanding of the
      various ESTH activities in the mission and their linkages to MSRP goals.

      Informal Recommendation 15: Embassy Jakarta should arrange for an environ­
      ment, science and technology, and health officer to consult at length with American
      and locally employed staff of Consulate General Surabaya, perhaps by digital video-
      conference, and explain to staff the Mission Strategic and Resource Plan policy
      linkages and content of the many environment, science and technology, and health
      activities in the mission.


      Public Affairs Section
      Although support for @america is in the work requirements of the principal officers
      of Consulate General Surabaya and APP Medan, it was not clear at the time of the
      inspection how these officers were to be held accountable for implementing this
      requirement.

      Informal Recommendation 16: Embassy Jakarta should clarify to Consulate
      General Surabaya and American Presence Post Medan how they should incorporate,
      on a second-hand basis, content from @america at their posts and at their American
      Corners.

      One of the American Corners in Medan was identified as underperforming because
      of its director.




100             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                       SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



Informal Recommendation 17: Embassy Jakarta should require that its Information
Resource Center, working in coordination with American Presence Post Medan, seek
to either replace that American Corner’s director or to arrange for a more proactive
associate director to be added to invigorate programming.

The public affairs section has metrics on how many Indonesians access its various
social media sites, but it has not measured how effective the mission is in using social
media to affect opinions of the United States and U.S. policy.

Informal Recommendation 18: Embassy Jakarta should require that the public
affairs section measure how effective it is in using social media to measure and move
opinions of the United States and U.S. policy.

In a matter of months Consulate General Surabaya will move into its new consulate
compound. There PAS will have its own compound access control from the periphery
of the compound. PAS will also have programming spaces it currently lacks in that
there will be an IRC and a multipurpose room. An LE position will be added to staff
the IRC.

Informal Recommendation 19: Embassy Jakarta should require that Consulate
General Surabaya plan an access and use strategy for its new Information Resource
Center and multipurpose room facilities.

The location of the Surabaya new consulate compound in an exclusive, hard to
reach part of the city may create a possible drift toward an unintended focus on elite
audiences.

Informal Recommendation 20: Embassy Jakarta should require that Consulate
General Surabaya develop programming partners and maintain the principal officer’s
centrally located residence as a programming platform, to avoid the possible drift
toward an unintended focus on elite audiences following its move to the new consul­
ate compound.
(b)(2)(b)(5)



Informal Recommendation 21: (b)(2)(b)(5)




           OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   101


                  SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



      Consular Section

      The work requirements statement for the consul general in Jakarta does not specify
      that he is responsible for countrywide consular coordination in Indonesia.

      Informal Recommendation 22: Embassy Jakarta should amend the work require­
      ments statement for the consul general in Jakarta to specify that he is responsible for
      ensuring coordinated implementation of consular policies and procedures at all posts
      in Indonesia.

      The deputy consular section chief supervises only part of the consular section. The
      NIV unit, which is the largest component of the section, is supervised directly the
      consul general. This set-up creates confusion. Many NIV officers turn to the deputy
      for advice and guidance. The deputy is also responsible for writing the performance
      evaluations on officers who he does not supervise.

      Informal Recommendation 23: Embassy Jakarta should change the supervisory
      relationships in the consular section so that the deputy consular section chief super­
      vises all units and all entry-level officers and should amend the work requirements
      statements of all consular officers accordingly.

      The OIG team found that an ELO had reviewed the refusals of some of his
      colleagues in his role as NIV chief. He had been assigned the NIV manager role by
      the systems administrator. This is an inappropriate assignment as 9 FAM 41.113
      PN17.1 and 9 FAM 41.121 N2.307 require that visa reviews be done by a supervisory
      consular officer.

      Informal Recommendation 24: Embassy Jakarta should change the roles in the
      nonimmigrant visa software for entry-level officers so that they have the nonimmi­
      grant visa Foreign Service officer role rather than the nonimmigrant visa manager
      role and therefore will not have access to the visa review function.

      As noted above, an ELO had been delegated authority to review visa adjudications of
      other ELOs.

      Informal Recommendation 25: Embassy Jakarta should create and implement a
      standard operating procedure in which the deputy consular section chief would be
      the primary officer for reviewing visa adjudications (both issuances and refusals) and
      providing feedback directly to the respective officers. The procedure should specify
      that the consul general will serve as the backup adjudication reviewing officer.




102             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                       SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



The consular cashier has duties serving American citizens in addition to her cashier
work, but she reports directly to the deputy consular section chief instead of the
senior LE staff member in the ACS unit.

Informal Recommendation 26: Embassy Jakarta should amend the supervisory
relationships so that the consular cashier is supervised by the senior LE staff member
in the ACS unit and amend the work requirements statements and position descrip­
tions for the employees accordingly.

Although Embassy Jakarta entered into a contract with Standard Chartered Bank to
collect MRV fees offsite, the bank still has a teller onsite in the first set of windows
that are otherwise used by LE staff to do the initial intake processing of NIV applica­
tions. CA does not condone this set-up.

Informal Recommendation 27: Embassy Jakarta should stop the practice of allow­
ing visa applicants to pay their fees to the bank teller onsite and use the window,
currently occupied in the morning by the bank teller, to help with intake.

Embassy Jakarta schedules up to 250 individuals to arrive within a one-hour time in
the morning. The first step in the process is application intake, which is outside the
security booth and the waiting area. There is very limited covered space to accommo­
date all of the applicants. Built-in counters that were needed when hard copy applica­
tions were used take up unnecessary space and could be removed.

Informal Recommendation 28: Embassy Jakarta should remove the obsolete coun­
ters in the intake area to allow more applicants to comfortably fit under the covered
walkway.

The consul general delegated the adjudication of Class B referrals to an ELO in the
NIV unit. This delegation of duties does not conform with the requirements in 9
FAM Appendix K 202, which require a mid-level supervisory consular officer or the
consular section chief to adjudicate all Class B referrals.

Informal Recommendation 29: Embassy Jakarta should require the deputy consular
section chief or the consul general (in the absence of the former) to adjudicate all
Class B visa referrals.




          OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   103


                 SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



      The consular section runs computer checks on referred visa applicants prior to when
      they submit their applications and are interviewed. The consular section then informs
      referring officers of the results, which is inappropriate. This procedure also creates
      unnecessary work for the section, as the computer checks have to be done again when
      the applicant is interviewed.

      Informal Recommendation 30: Embassy Jakarta should cease doing advance
      computer checks on potential visa applicants, including visa referral cases.

      The visa referral policy contains some specific requirements for referrals that impose
      unnecessary difficulties on other embassy sections. The current policy requires that
      the referring officer submit a referral through the regular applicant window within a
      strict one-hour time frame. Employees have complained about waiting in long lines
      simply to drop off a referral.

      Informal Recommendation 31: Embassy Jakarta should provide a locked drop box
      for referring officer to submit referrals outside the chancery entrance to the consular
      section.

      The deputy consular section chief is one of only two tenured officers in the section.
      As such, he is needed to provide close supervision and guidance to inexperienced
      officers. He is currently directly supervising only the IV and ACS units in which only
      two of the eight ELOs work. He spends a substantial portion of his time doing case
      work.

      Informal Recommendation 32: Embassy Jakarta should require that the deputy
      consular section chief spend less time on case work to give him more time to manage
      the section as a whole.

      The consular cashier also performs ACS work, primarily notarial services. She keeps
      ACS files in her cashier booth. Those files should be accessible to other employees
      with ACS responsibilities, but those employees should not have access to the cashier
      booth.

      Informal Recommendation 33: Embassy Jakarta should remove the American citi­
      zens services files from the consular cashier’s booth and put them with the rest of the
      American citizens services files in the general work area.




104             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                       SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED


(b)(2)(b)(5)



Informal Recommendation 34: (b)(2)(b)(5)




Management Section
Facilities Management
The rental proceeds from the Mirasole Guest House have been deposited into the
embassy’s maintenance and repair allotment, which is contrary to FAM regulations
that prohibit supplementing of allotments. The correct allotment is specified in 15
FAM 249.2.

Informal Recommendation 35: Embassy Jakarta should credit proceeds from the
rental of Mirasole Guest House into the Bureau of Overseas Buildings Operations
allotment 19X0535 REIM AAAQ.


General Services
Motor pool drivers do not require passengers to fasten seat belts before they operate
the vehicles.

Informal Recommendation 36: Embassy Jakarta should issue a management notice
informing all mission staff that all passengers in government vehicles are required to
wear seat belts and should require that drivers do not operate the vehicles until they
have verified that all passengers are belted.

Some corridors in embassy buildings are partially blocked with office equipment,
furniture, and boxes, which could impede emergency egress routes.

Informal Recommendation 37: Embassy Jakarta should create and implement
a plan to remove all office equipment, furniture, and boxes from the corridors of
embassy buildings.




           OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   105


                  SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


      Human Resources
      (b)(2)(b)(5)



      Informal Recommendation 38: (b)(2)(b)(5)


      There is a lack of transparency in the hiring process at APP Medan.

      Informal Recommendation 39: Embassy Jakarta should conduct interviews for all
      of American Presence Post Medan’s future vacancies and allow a representative from
      Medan to sit on the interview panel.

      A list of overdue LE staff employee performance reports is not submitted to the
      appropriate agency head and/or DCM or Ambassador on a regular basis.

      Informal Recommendation 40: Embassy Jakarta should submit a list of overdue
      locally employed staff employee performance reports to the appropriate agency head
      and/or DCM or Ambassador on a regular basis.

      The election of LE staff to the Indonesian Employees’ Association’s executive council
      does not follow the Foreign Service national handbook.

      Informal Recommendation 41: Embassy Jakarta should follow the Foreign Service
      handbook when electing LE staff to the Indonesian Employees’ Association’s execu-
      tive council.


      Financial Management
      The two LE staff responsible for the preparation of the ICASS and program budgets
      lack the necessary experience.

      Informal Recommendation 42: Embassy Jakarta should send the two employees
      responsible for the preparation of the International Cooperative Administrative
      Support Services and program budgets on consultations to similar-sized embassies to
      learn from their more experienced peers.

      The financial specialist and the supervisory financial management analyst lack suffi-
      cient depth of knowledge to provide the rest of the section’s LE staff the necessary
      support and guidance.

      Informal recommendation 43: Embassy Jakarta should provide the necessary
      training, both classroom and on-the-job, to the financial specialist and supervisory



106              OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                        SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED



financial management analyst so that they can provide the necessary support and
guidance.

Embassy Jakarta has not limited membership on its ICASS council to that of the
ICASS executive board.

Informal Recommendation 44: Embassy Jakarta should limit membership on its
International Cooperative Administrative Support Services council to that of the
International Cooperative Administrative Support Services executive board.

Many of Jakarta’s agency heads do not attend ICASS council meetings but instead
send a designee.

Informal Recommendation 45: Embassy Jakarta’s should require that the
International Cooperative Administrative Support Services council consist of senior-
level agency representatives.

A Department representative has chaired the ICASS council for the past 3 years and
is currently going into the fourth year.

Informal Recommendation 46: Embassy Jakarta should elect a new International
Cooperative Administrative Support Services council chair from a non-State agency
to better reflect and encourage full-agency participation in Mission Indonesia.

The ICASS council did not fulfill its responsibility to provide input to the manage­
ment officer’s employee evaluation report.

Informal Recommendation 47: Embassy Jakarta should establish a procedure to
ensure that the International Cooperative Administrative Support Services council
provides input to the management officer’s employee evaluation report.

Embassy Jakarta has not established an ICASS budget committee.

Informal Recommendation 48: Embassy Jakarta should establish an International
Cooperative Administrative Support Services budget committee.


Information Management
The various operational functions supervised by the Information Programs Center
staff, are not receiving the appropriate amount of direction. The OIG team found
that many of the groups receive little guidance and supervision from their American
supervisors.

Informal Recommendation 49: Embassy Jakarta should require that the manage­
ment staff in the Information Program Center provide the appropriate amount of

         OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   107


                SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



      supervision to the various operational areas. Consistent guidance and support is
      necessary for managing an effective operation.

      Consulate General Surabaya currently has some rudimentary mail procedures for
      processing postage of outgoing parcels.

      Informal Recommendation 50: Consulate General Surabaya should establish a mail
      procedure that ensures proper postage processing for outgoing mail.


      Health Unit
      The direct-hire Foreign Service medical officers do not take first call in rotation with
      the other health unit staff.

      Informal Recommendation 51: Embassy Jakarta should require that the health unit
      direct-hire Foreign Service medical officers take duty calls in rotation with the other
      staff.


      Recreation Association
      Not all members of the American Embassy Commissary Recreation Association have
      paid membership dues.

      Informal Recommendation 52: Embassy Jakarta should collect membership dues
      from the recreation association members who have not paid.

      The recreation association’s general manager granted herself a loan without the prior
      knowledge and approval of the board.

      Informal Recommendation 53: Embassy Jakarta should develop a written policy on
      employee loans to be approved by a majority vote of the board.


      Equal Employment Opportunity
      Neither Consulate General Surabaya nor APP Medan has an LE EEO liaison,
      notwithstanding issues that have occurred at APP Medan.

      Informal Recommendation 54: Embassy Jakarta should take the lead in selecting a
      locally employed Equal Employment Opportunity liaison in Surabaya and Medan.

      The names of the EEO counselors and the Federal Women’s Program coordinator
      were not posted on notice boards at Embassy Jakarta, Consulate General Surabaya,
      and APP Medan, as specified in 3 FAM 1514.2 a. and b. . Neither was there contact



108             OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                       SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


information for LE EEO liaisons. In addition, Surabaya and Medan did not post the
Secretary’s current EEO statement or sexual harassment statement.

Informal Recommendation 55: Embassy Jakarta should take steps to update
notice boards at the embassy and constituent posts with current and required Equal
Employment Opportunity information.




         OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   109


                SENSITIVE BUT UNCLASSIFIED
             SENSITIVE BUT UNCLASSIFIED





110   OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


             SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED




PRINCIPAL OFFICIALS


Position                                                              Name                                       Arrival Date

Ambassador                                                            Scot A. Marciel                                    8 / 2010
Deputy Chief of Mission                                               Theodore G. Osius                                  6 / 2009

Chiefs of Sections

Management                                                            Michael C. Mullins                                 8 / 2008
Consular                                                              Jeffrey S. Tunis                                   3 / 2009
Political                                                             Theodore J. Lyng                                   8 / 2010
Economic                                                              Peter D. Haas                                      7 / 2007
Public Affairs                                                        Don Q. Washington                                  6 / 2010
Regional Security                                                     James W. Schnaible                                 7 / 2010
Regional Affairs                                                      John Sipher                                        7 / 2009

Consulate General Surabaya

Consul General                                                        Kristen F. Bauer                                   7 / 2010

American Presence Post Medan

Principal Officer                                                     Stanley J. Harsha                                  9 / 2009

Other Agencies

USAID                                                                 Walter E. North                                   10 / 2007
Department of Defense
  Defense Attaché                                                     Russell Bailey                                     7 / 2010
  Office of Defense Cooperation                                       Randall L. Koehlmoos                               8 / 2010
Foreign Commercial Service                                            Joseph B. Kaesshaefer                              7 / 2008
Foreign Agricultural Service                                          Dennis B. Voboril                                  8 / 2008
Department of Justice-ICITAP                                          Gerald H. Heuett                                  10 / 2005
Resident Legal Adviser-OPDAT                                          Robert R. Strang                                   8 / 2006
Federal Bureau of Investigation
  Legal Attaché                                                       David C. Smith                                     2 / 2007
Department of Homeland Security                                       Matthew W. Spelsberg                               7 / 2008
Library of Congress                                                   William P. Tuchrello                               9 / 2005




           OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011               111


                  SENSITIVE BUT UNCLASSIFIED
             SENSITIVE BUT UNCLASSIFIED





112   OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


             SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




ABBREVIATIONS


ACS                              American citizens services
APP                              American Presence Post
ARSO-I                           assistant regional security officer-investigator
ASEAN                            Association of Southeast Asian Nations
CA                               Bureau of Consular Affairs
CLO                              community liaison office
CSC                              Customer Service Center
DCM                              deputy chief of mission
DVC                              digital video conferencing
EAP                              Bureau of East Asian and Pacific Affairs
EEO                              Equal Employment Opportunity
ELO                              entry-level officer
EPR                              employee performance review
ESTH                             environment, science and technology, and health
FAH                              Foreign Affairs Handbook
FAM                              Foreign Affairs Manual
GOR                              grants officer representative
GSO                              general services officer
HR                               human resources
ICASS                            International Cooperative Administrative Support
                                 Services
IM	                             information management
IPO 	                            information programs officer
IV                               immigrant visa
LE	                             locally employed
MSRP	                            Mission Strategic and Resource Plan
NIV                              nonimmigrant visa 	


         OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011   113


                SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



      NSDD-38                         National Security Decision Directive-38

      OBO                             Bureau of Overseas Buildings Operations
      OIG                             Office of Inspector General
      PAS                             public affairs section
      PAO                             public affairs officer
      SAO                             security advisory opinion
      SBY                             Susilo Bambang Yudhoyono, President of Indonesia
      SHEM                            safety, health, and environmental management
      SMART                           State Messaging and Archive Retrieval Toolset
      TAGS                            Traffic Analysis by Geography and Subject
      UPS                             universal power supply
      USAID                           U.S. Agency for International Development
      WQLQ                            workplace and quality of life questionnaire




114           OIG Report No. ISP-I-11-24A - Inspection of Embassy Jakarta, Indonesia, and Constituent Posts - March 2011


                     SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED





SENSITIVE BUT UNCLASSIFIED

SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE

OR MISMANAGEMENT

 of Federal programs hurts everyone.



           Contact the

   Office of Inspector General


         HOTLINE

to report illegal or wasteful activities:


            202-647-3320
            800-409-9926

         oighotline@state.gov

              oig.state.gov

      Office of Inspector General

       U.S. Department of State

            P. O. Box 9778

         Arlington, VA 22219



     Cables to the Inspector General
    should be slugged “OIG Channel”
        to ensure confidentiality.




SENSITIVE BUT UNCLASSIFIED

